<html>
<title> - U.S. POLICY TOWARD SYRIA</title>
<body><pre>[Senate Hearing 113-197]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-197

                        U.S. POLICY TOWARD SYRIA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/







                  U.S. GOVERNMENT PRINTING OFFICE

86-861 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Ford, Hon. Robert, U.S. Ambassador to the Syrian Arab Republic, 
  U.S. Department of State, Washington, DC.......................     8
    Prepared statement...........................................    10
Glaser, Hon. Daniel, Assistant Secretary for Terrorist Financing 
  and Financial Crimes, U.S. Department of the Treasury, 
  Washington, DC.................................................    12
    Prepared statement...........................................    14
Jones, Hon. Elizabeth, Acting Assistant Secretary of State for 
  New Eastern Affairs, U.S. Department of State, Washington, DC..     5
    Prepared statement...........................................     6
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Ross, Hon. Dennis, counselor, Washington Institute for Near East 
  Policy, Washington, DC.........................................    35
    Prepared statement...........................................    37

              Additional Material Submitted for the Record

Responses of Ambassador Robert Ford and Acting Assistant 
  Secretary Elizabeth Jones to questions submitted by:
    Senator Robert Menendez......................................    45
    Senator Jeff Flake...........................................    46

                                 (iii)




 
                        U.S. POLICY TOWARD SYRIA

                              ----------                              


                        THURSDAY, APRIL 11, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:17 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Casey, Cardin, Kaine, Udall, 
Corker, Rubio, Johnson, McCain, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good afternoon. This hearing of the Senate 
Foreign Relations Committee will come to order.
    We appreciate all of our witnesses who are here, and I 
especially want to appreciate Ambassador Ford's extraordinary 
effort to join us today, having come from the Syria meeting in 
London, I believe, directly here. We appreciate our three 
panelists who will help us unravel some of the complexities and 
implications of what has become a dangerous sectarian war that 
has already taken the lives of more than 70,000 Syrians and 
displaced at least 4 million more, according to the United 
Nations.
    I hope our witnesses can pay particular attention to the 
implications of this massive humanitarian tragedy and shed more 
light on the options that we have, if any, for a more active, 
assertive American leadership role.
    This does not mean throwing ourselves into the middle of a 
very complicated and dangerous sectarian war. None of us want 
to do that. But it does mean looking at every option for the 
United States to play a leading role in a coordinated 
international response that comes with a clearly articulated 
strategy that our partners in the Middle East and around the 
world can support.
    That said, Syria is more than just a humanitarian tragedy. 
Serious U.S. interests are at stake and they cannot be ignored. 
Large chemical weapons stockpiles could fall into the wrong 
hands or be used by the Assad regime against its own people. 
Extremist groups could destroy the possibility of a stable 
post-Assad Syria. The Syrian state could collapse leaving a 
safe haven for terrorists sitting in Israel's border, 
constituting a new threat to the region with broader 
implications for our own security. The refugee crisis and 
sectarian violence could worsen and spread instability not only 
to Jordan and Lebanon, but to Iraq and Turkey.
    We are all hoping for a quick end to the Assad regime which 
would mean an end to Iran's closest ally in the Middle East, 
but we cannot allow Assad then to trigger more instability in 
an already turbulent region.
    So the basic question I hope we can explore today is this. 
Given the realities on the ground in Syria, what exactly do we 
do? What are our options?
    First, we are already providing $385 million in 
humanitarian support to Syria, but even in this difficult 
fiscal climate, we could dramatically increase that number to 
help end the suffering of the Syrian people caught in one of 
the most devastating humanitarian tragedies the region has 
seen. Just last week, the United Nations said that the 
humanitarian crisis had escalated so dramatically in recent 
months that the relief effort was now broken. An increase in 
aid would signal to other donor nations that this is not 
business as usual, that there is too much at stake to allow a 
failed Syrian state to cause more suffering and destabilize the 
region further.
    Second, we need to find ways to cut off the Assad regime's 
economic lifelines from Moscow and Tehran. Russia and Iran must 
both know that there will be economic consequences for their 
continued support of a regime that is committing horrific 
atrocities against its own people.
    Third, we must increase support for the Syrian Opposition 
Coalition and other groups inside Syria that we are confident 
share our fundamental values and interests. We need to continue 
to identify these groups and directly provide them with the 
nonlethal aid we have already been sending them, and we need to 
assist them in setting up governing institutions that are a 
clear alternative to Assad.
    But for my own view, looking at the situation as it exists, 
I believe the time has come to consider providing in some form 
military aid to the opposition because unless we change the 
dynamic and put our finger on the scales to change the tipping 
point, Assad will continue to believe he can hold on to power. 
If he can have a monopoly in the skies and in artillery, he 
will probably believe that he can continue indefinitely.
    And so it should include, in my mind, weapons, but stop 
short of those weapons that could threaten our own interests if 
they fall into the wrong hands like shoulder-fired missiles. We 
learned that lesson in Afghanistan the first time around. We 
should not make that same mistake again.
    We should also be providing training, both tactical, 
strategic, and otherwise, to improve the fighting capacity of 
the friendly opposition forces we identify, as well as possibly 
share intelligence in terms of where Syrians' assets are so 
that they can more strategically be able to pursue their fight. 
That will not only help in the struggle to end the atrocities, 
it will also help us in establishing working relationships with 
the future leaders of Syria.
    If we take these bold steps, publicly and forcefully with 
the support of our allies, we will send a strong signal to key 
Middle Eastern and European partners that they should get 
behind a joint effort, a signal to countries like Iraq that it 
is time to get behind the international community and cut off 
the supply lines that stretch from Tehran to Damascus across 
Iraq. And it will send a strong signal to Assad and his Russian 
and Iranian allies that efforts to keep him in power will be in 
vain.
    In the weeks ahead, I plan to introduce legislation that 
reflects this strategy, and I look forward to discussing the 
elements of it today with our two panels.
    For our first panel, we have three distinguished witnesses. 
Robert Ford is the U.S. Ambassador to Syria. Elizabeth Jones is 
the Acting Assistant Secretary of State for Near Eastern 
Affairs, and Daniel Glaser is the Assistant Secretary of 
Treasury for Terrorist Financing.
    And before we hear from them, I would like to call upon my 
distinguished colleague, the ranking member, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    I want to thank Ambassador Ford, Ambassador Jones, and 
Secretary Glaser for coming today.
    I think sometimes we forget about the tremendous public 
service that people provide for our country, and today I was 
glad, at lunch, that Republicans and Democrats honored John 
McCain for his extraordinary service and the celebration of him 
being released from a prisoner-of-war camp, the Hanoi Hilton, 
40 years ago. So, John, that was an outstanding experience, and 
I thank you for your character and for sharing all that with us 
today. It was truly moving I think to all of us.
    And I think it was the first time we have had a Republican 
and Democratic lunch since I have been here. So thank you for 
bringing us together in that way.
    The Chairman. And we paid.
    Senator Corker. And you all paid. That is right. 
[Laughter.]
    I recognize that we really have no good options available 
to us in Syria, and I really do not want to debate, although if 
people want to discuss it, I think that is fine, how we might 
have acted and along what lines in what has been a challenging 
environment. Instead, I would like for us to focus, if we 
could, today on the way forward. And I know that the chairman 
has indicated he has some plans of his own.
    We really do not have a good idea of where the President is 
headed on policy toward Syria. It feels to me as if we wake up 
and the events in Syria determine the next stop gap, almost to 
show that we are involved but not really that involved. And so 
I hope today that our panelists will help us understand where 
the President is headed on Syria policy.
    So far, as I mentioned, we have been in a reaction mode and 
the administration's response appears to be ad hoc, consisting 
of moving funds for unanticipated emergencies or even when it 
comes to supporting opposition forces and groups with nonlethal 
aid.
    I understand the limitations and restrictions that have 
contributed to that approach. I really do. But I think it is 
reasonable now to say that we cannot or should not be in an 
unanticipated emergency mode any longer. This is now going into 
its third year.
    So I hope today we will be illuminated by the 
administration in stating what are our goals, what principles 
guide our decisions, what are our parameters for growing our 
involvement there. Do we have redlines or limits? Do we have 
conditions based on cooperation from our allies? Do we have a 
realistic timeline? How do we know the partners we have chosen 
are credible and reliable? What resources and what 
authorization does the President believe he needs?
    Without these clear objectives, principles, or parameters, 
events might pull us into a very dangerous circumstance where 
we have too little control or where we miss a critical opening 
to do what is necessary. I can imagine that events such as the 
use of chemical weapons, violent extremists seizing control of 
the country, extremists gaining possession of chemical weapons 
or even humanitarian concerns could drive our policy into 
deeper involvement. I am also concerned, though, that we could 
overestimate the value and underestimate the difficulty of a 
limited military involvement such as a no-fly zone.
    There is a clear humanitarian imperative to bring Assad's 
barbaric violence to an end, but there are long-term challenges 
in Syria that we cannot solve with a quick military fix. While 
we may have little control over events in Syria, we do have 
control over our own decisionmaking process for foreign 
assistance and for involvement in a war.
    Earlier this week, I sent a letter to the President noting 
the constitutional role of Congress in such decisions and my 
expectation that major changes or engagements can lawfully 
proceed only with Congress. I am not saying that I would, or 
would not, support greater involvement but that he should not 
do so in such a way as to clearly avoid Congress' role, as was 
the case in Libya and has been the case thus far with Syria.
    Specifically, I am very interested in what our preparations 
are for the day after the Assad regime falls, as it eventually 
will, we all hope. As we are making preparations for allies in 
the region, are we preparing for the chaos of possible 
explosion of sectarian violence that may explode among 
opposition groups when they lose their common enemy, and if we 
are preparing for these eventualities, how are we doing so?
    I look forward to your testimony today, and I thank you for 
your service.
    The Chairman. Thank you, Senator Corker.
    And let me just take a moment to join you and say that I 
want to thank Senator McCain as well in this joint caucus that 
we had. I have had the privilege now of serving here 7 years 
with Senator McCain, and I had never heard--I knew elements of 
it, but I had never heard those riveting stories about your 
time in captivity and capture in the Vietnam war and the 
incredible human spirit that comes through in even your 
description of some of the most harrowing and difficult times 
in your life. And it was really enlightening to me in so many 
ways and uplifting to me in so many ways. So I appreciate your 
sharing it with all of us on both sides of the aisle, and I 
salute you as an extraordinary American who I have the 
privilege of serving with.
    Senator McCain. I thank the chairman. And I also would 
remind him that I appreciate, ahead of time, him forgiving me 
for any aggravation I may cause. I thank the chairman. 
[Laughter.]
    The Chairman. This committee is all about diplomacy. 
[Laughter.]
    So with that, let me recognize Secretary Jones and then 
Ambassador Ford and then Secretary Glaser.

 STATEMENT OF HON. ELIZABETH JONES, ACTING ASSISTANT SECRETARY 
 OF STATE FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Jones. Thank you, Mr. Chairman. Thank you, 
members of the committee. Thank you for inviting us to present 
an overview of our policy to promote political transition in 
Syria.
    I ask that my written statement be included in the record.
    The Chairman. Without objection.
    Ambassador Jones. February marked 2 years since Syrian 
protesters took peacefully to the streets to seek basic rights 
and protections from their government, like others throughout 
the region. What started out as a peaceful demand for dignity 
and freedom has become one of the most devastating conflicts of 
the 21st century.
    As you noted, Mr. Chairman, Syrian civilians face an 
unprecedented level of ruthlessness from the Assad regime. 
Every day, the regime targets residential neighborhoods with 
heavy weapons, short-range ballistic missiles, cluster bombs, 
surface-to-surface missiles, including Scuds. March was the 
deadliest month of the conflict with over 6,000 Syrians killed. 
More than 70,000 Syrians have been killed since the beginning 
of the conflict, and the number is rising as the fighting in 
Damascus and southern Syria intensifies. Three to four million 
people are now internally displaced. More than 1.2 million 
people are refugees. The worst part of this is these numbers 
could double or even triple by the end of this year, nearly 
one-third of Syria's population.
    We are working to alleviate this human suffering. The 
United States is the largest bilateral humanitarian donor. We 
are providing nearly $385 million in assistance to those in 
need across all 14 governorates in Syria and across the 
neighboring countries. This money is being spent on emergency 
medical care and supplies, blankets, food, clean water, and 
shelter. We are sending flour to 50 bakeries in Aleppo and 
sponsoring food and sanitation projects for the desperate 
families in the Atmeh refugee camp. But this is not enough to 
meet the overwhelming need.
    In January in Kuwait, over 40 countries pledged $1.5 
billion to help Syrian refugees. We are pressing the countries 
now to make good on these pledges.
    In addition to addressing humanitarian needs, we are 
preparing for a Syria without Assad by helping the opposition 
lay the foundation for a democratic transition that protects 
the rights of all Syrians and that fosters, rather than 
threatens, stability in the Middle East.
    This effort is being coordinated closely with our partners 
in the region, including Israel. No one wants the Syrian state 
to collapse or to be overtaken by extremists. No one wants the 
risks associated with chemical weapons and terrorist bases. 
That is why we and our partners are helping build the Syrian 
political opposition, including by recognizing the Syrian 
Opposition Coalition as the legitimate representative of the 
Syrian people. Comprised of diverse representatives inside and 
outside Syria, the coalition is committed to a democratic, 
inclusive Syria, free from the influence of violent extremists. 
Supporting such entities is the best way to ensure that the 
Syrian state that emerges after the Assad regime is inclusive 
and representative.
    These political efforts are intertwined with our push for 
negotiations. A negotiated political transition is the best 
solution to the crisis in Syria. The Geneva communique calls 
for a transitional governing body with full executive powers 
and formed on the basis of mutual consent. This means that 
Assad, who has long lost his legitimacy and whom the opposition 
will never accept, will not play any role in that transitional 
governing body. And if Assad is unwilling to decide that he 
should transfer executive authority, we will continue to find 
ways to pressure him to think differently about that lies in 
the future.
    While this administration continues to take a hard look at 
every available, practical, and responsible means to end the 
suffering of the Syrian people, we do not believe that it is in 
the United States or the Syrian people's best interest to 
provide lethal support to the Syrian opposition. The judgments 
we make must pass the test of making the situation better for 
the Syrian people and must also take into account the long-term 
human, financial, and political costs for us, for Syria, and 
for the region. We continue to believe that a political 
solution to the crisis is the best way to save the Syrian 
people further suffering and to avert further destruction of 
the country for which the regime bears overwhelming 
responsibility.
    Thank you again for the invitation to testify before your 
committee today. I am happy to take your questions after my 
colleagues have made their statements.
    [The prepared statement of Ambassador Jones follows:]

            Prepared Statement of Ambassador Elizabeth Jones

    Chairman Menendez and members of the committee, thank you for 
inviting me to present an overview of our policy to promote political 
transition in Syria.
    February marked 2 years since Syrian protesters took peacefully to 
the street, like others throughout the region, to seek basic rights and 
protections from their government. What started out as a peaceful 
demand for dignity and freedom has become one of the most devastating 
conflicts of the 21st century.
    More than 70,000 Syrians have been killed since the beginning of 
the conflict and the number is rising as the fighting in Damascus and 
southern Syria intensifies. This March was the deadliest month of the 
conflict, with over 6,000 Syrians killed.
    In addition to the devastating human toll, we face an expanding 
extremist threat, and a few days ago al-Qaeda announced the extension 
of its ``Islamic State'' in Syria. Iran's role in perpetuating the 
bloodshed inside Syria is well known. Through its ongoing provision of 
personnel, guidance, and material and financial assistance, Iran is 
helping the Assad regime continue its repression and systematic 
violence against the Syrian people. Iran is joined in this effort by 
Hezbollah, which also provides strong operational support to Assad.
    Neighboring countries are paying the price as the spillover of 
violence and refugees from Syria threatens the stability of Lebanon, 
the capacity of Jordan, the progress of Iraq, and the security of 
Israel.
    But with each passing day, the regime's grip on power weakens. 
Territory slips from its grasp, and, in a growing number of towns and 
villages, a new Syria is being born. The regime of Bashar al-Assad must 
and will go. The sooner he steps aside, the better for all Syrians.
    The United States, along with our partners, is working in several 
ways to hasten this process and lay the groundwork for a peaceful, 
democratic future for Syria.
    First, we are working to change Assad's calculations. With our 
allies and partners, we are pressuring the regime to end its war on the 
Syrian people and come to the negotiating table by range of diplomatic 
tools including one of the most severe set of economic sanctions. The 
regime's finances have never been so weak; and it has never been so 
isolated in the world community.
    At the same time--and more critically--we are helping the 
opposition prepare for a Syria without Assad by laying the foundation 
for a democratic transition that protects the rights of all Syrian 
people regardless of their religion, ethnicity, or gender. The 
opposition has articulated a common vision and transition plan for 
Syria that offers an alternative to the Assad regime's tyranny. We 
support this vision.
    Our assistance to the Syrian opposition, at the national and local 
levels, from local councils in liberated areas to civil society, is 
enabling these groups to plan for the future while providing essential 
services and extending the rule of law inside liberated areas of Syria 
now. Ambassador Ford will provide details about our transition 
assistance.
                             the human cost
    We undertake our work even as Syrian civilians face an 
unprecedented level of ruthlessness from the Assad regime. Every day 
the regime targets residential neighborhoods with heavy weapons, 
cluster bombs, and short-range ballistic missiles, including Scuds. The 
regime is sending its thugs to torture their fellow citizens, destroy 
hospitals and schools, and indiscriminately kill civilians, all in 
appalling violation of international law. As the fighting in Damascus 
intensifies the death toll will rise.
    Millions have been forced to flee their homes to seek safety within 
the country or beyond its borders. According to the U.N., 3 to 4 
million people are now internally displaced and more than 1.3 million 
people are refugees. These numbers could double or even triple by the 
end of 2013--that would amount to nearly one-third of Syria's 
population.
    We are starting to see troubling signs that the increase in 
refugees is destabilizing the region. Jordan's Zaatari refugee camp is 
now Jordan's fifth-largest city, hosting over 100,000 Syrian refugees. 
Syrian refugees in Lebanon now are around 10 percent of that country's 
population, threatening Lebanon's fragile ethnosectarian balance. UNRWA 
reports that over 40,000 Palestinian refugees from Syria have sought 
refuge in Lebanon, straining resources in already-packed Palestinian 
camp communities and further heightening tensions. Turkey now hosts 
over 250,000 Syrian refugees. Tens of thousands of refugees have also 
fled into Iraq.
    To help address this growing humanitarian crisis, we are providing 
nearly $385 million in assistance to those in need, across all 14 
governorates in Syria and across neighboring countries. This money is 
being spent on emergency medical care and supplies, blankets, food, 
clean water, and shelter. We are sending flour to 50 bakeries in Aleppo 
and sponsoring food and sanitation projects for the desperate families 
in Atmeh refugee camp. But this is not enough to meet the overwhelming 
need.
    U.N. Secretary General Ban Ki-moon and the Government of Kuwait 
hosted a donor conference on January 30, at which donor nations pledged 
over $1.5 billion to help Syrians in need. But the U.N. appeals for 
assistance remain only partially funded. Secretary Kerry and I are both 
personally pressing countries now to make good on their pledges.
                             the road ahead
    In addition to addressing humanitarian needs, we are preparing for 
a Syria without Assad by helping the opposition lay the foundation for 
a democratic transition that protects the rights of all Syrians and 
that fosters, rather than threatens, stability in the Middle East.
    That is why we and our partners are helping build the Syrian 
political opposition, including by recognizing the Syrian Opposition 
Coalition as the legitimate representative of the Syrian people. 
Comprised of diverse representatives from inside and outside Syria, the 
Coalition is committed to a democratic, inclusive Syria free from the 
influence of violent extremists. Supporting such entities is the best 
way to ensure that the Syrian state that emerges after the Assad regime 
is inclusive and representative.
    In the months since its formation, the Coalition has made 
significant progress in deepening its technical expertise, such as by 
developing the Assistance Coordination Unit (ACU), which identifies 
Syrian communities most in need and ensure that humanitarian assistance 
reaches them. The Coalition is also expanding its capacity to 
coordinate transition planning, including transitional justice plans to 
hold perpetrators of violence accountable.
    But now the Coalition is at a turning point. President Khatib has 
indicated that he is likely to resign at the end of his term in May. 
Ghassan Hitto, the Coalition-elected Prime Minister, who has been an 
effective partner in assistance coordination, is still shaping his 
role. The Coalition needs international support if it is to move these 
transitions successfully and build the kind of lasting credibility it 
needs with the Syrian people so that it can more effectively compete 
with extremists.
                          ending the violence
    We believe that the best way to end the Syrian crisis is through a 
negotiated political solution. The regime and its supporters will fight 
to the last person standing. To get to a sustainable peace, Syrians 
need a political solution that assures all citizens of their rights.
    The opposition and members of the regime without blood on their 
hands must come together to negotiate a deal like the framework laid 
out in the Geneva communique. This framework--agreed last June by the 
permanent members of the United Nations Security Council, Turkey, and 
Arab League states--calls for a transitional governing body formed on 
the basis of mutual consent of the opposition and the Syrian regime to 
be given full executive powers and guide the country to elections.
    This means that Assad, who has long lost his legitimacy and whom 
the opposition will never accept, will not play any role in that 
transitional governing body. If he is unwilling to decide that he 
should transfer executive authority, we will continue to find ways to 
pressure him to think differently about what lies in the future.
    While this administration continues to take a hard look at every 
available, practical, and responsible means to end the suffering of the 
Syrian people, we do not believe at this time that it is in the United 
States or the Syrian people's best interest to provide lethal support 
to the Syrian opposition. The judgments we make must pass the test of 
making the situation better for the Syrian people and must also take 
into account the long-term human, financial, and political costs for 
us, Syria, and the region. We continue to believe that a political 
solution to the crisis is the best way to save the Syrian people 
further suffering and to avert further destruction of the country, for 
which the regime bears overwhelming responsibility.
    As President Obama told the Syrian people in a recent message, 
``More Syrians are standing up for their dignity. The Assad regime will 
come to an end. The Syrian people will have their chance to forge their 
own future. And they will continue to find a partner in the United 
States of America.''
    We look forward to working with Congress throughout this process as 
we seek to protect the interests of the United States in the region and 
support the needs of the Syrian people in their struggle to create a 
free, stable, and democratic Syria.
    Thank you again for the invitation to testify before your committee 
today. I am happy to take your questions.

    The Chairman. Ambassador Ford.

 STATEMENT OF HON. ROBERT FORD, U.S. AMBASSADOR TO THE SYRIAN 
    ARAB REPUBLIC, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Ford. Chairman Menendez and members of the 
committee, thank you very much for inviting me today.
    My colleague, Acting Assistant Secretary Jones, has spoken 
about sort of the broader picture of the Syrian crisis. So if 
it is all right with you, I would like to just say a few things 
about my recent trip to the region and to London and the latest 
on the particular work we are doing. I know our time is short, 
and therefore if you can just put my written statement in the 
record, that would be great.
    The Chairman. Without objection.
    Ambassador Ford. So the Syrian Opposition Coalition is at a 
crucial leadership juncture now. President Khatib has indicated 
that he may leave his position in May. Ghassan Hitto, who is 
from Texas--he is the coalition-elected Prime Minister. And we 
know him. We worked with him on getting humanitarian assistance 
into Syria. But he is still establishing himself in his new 
role. And I met him yesterday in London, and he is still 
determining how he is going to do his work and with whom he 
will work.
    I think more broadly, Mr. Chairman, there is a real 
competition underway now between extremists and moderates in 
Syria, and we need to weigh in on behalf of those who promote 
freedom and tolerance.
    Iran's role in the conflict is especially pernicious as it 
helps the Assad regime build sectarian militias and attracts 
Hezbollah and Iraqi militants into Syria.
    I met on Tuesday with the commander of the opposition armed 
forces in Aleppo. He highlighted to me that he senses that up 
in Aleppo, the Syrian regime is slowly running out of soldiers. 
He said, instead, there are more regime militia fighters where 
there used to be soldiers, and he, too, highlighted that 
Iranians and Hezbollah have increased their presence on the 
ground with the remaining Syrian forces up in Aleppo.
    Yesterday, Wednesday, Syrian political leaders meeting with 
Secretary Kerry also highlighted this Iranian presence, and 
they, too, highlighted the role of Hezbollah fighters in 
different cities now in Syria. They also talked about Iraqi 
Shia fighters from the Abul Abbas Brigade, and we know that 
brigade from our time in Iraq back in 2004.
    Let me underline here that while the Iranians and their 
friends are helping the Syrian regime, they have not been able 
to stop the slow progress of the armed opposition. They have 
slowed it in some places as up in Aleppo, but they have not 
stopped it. But their presence does aggravate the sectarian 
nature of the conflict now. And in particular, the Syrian 
regime is recruiting Alawis, Shia, and Christians for its 
militias, and the human rights abuses committed by those 
militias, as well as armed groups in some cases on the 
opposition side has triggered more fear and fear of 
retaliation. So let me be clear here now that we condemn human 
rights abuses committed by all of the sides.
    I would also like to be clear that the Syrian regime bears 
the primary responsibility for turning what had been a peaceful 
protest movement in the spring of 2011 into an armed conflict 
and for seeking to survive by making this armed conflict a 
sectarian one. So I mentioned there is fear on all sides, and 
it is very difficult to achieve reconciliation in such a 
climate of fear. But the Syrians are going to have to develop a 
vision of what freedom means in a new Syria, and it is not 
going to be easy.
    We, for our part, are working to give them a chance to 
develop that vision by helping them prepare for an inclusive, 
democratic transition as we push steadily for a negotiated 
political transition along the lines of the Geneva communique. 
Let me underline here again that we view that Bashar al-Assad 
must step aside as part of that political transition.
    International support for the opposition coalition is going 
to be crucial to bolster the opposition coalition's capacity to 
provide support to Syrians. We helped set up the Friends of 
Syria group and we have led that steadily. As part of our 
leadership, Secretary Kerry announced a new package of 
assistance of $63 million. That package will help counter 
extremists. It will help us weigh in on behalf of the 
moderates, and it will enable the coalition to move ahead in 
attracting more support as it develops a political transition 
process.
    We look forward to working with you, Mr. Chairman, and with 
other members of the committee as we go forward. Thank you.
    [The prepared statement of Ambassador Ford follows:]

              Prepared Statement of Ambassador Robert Ford

    Chairman Menendez and members of the committee, thank you for 
inviting me to present an overview of our policy to promote political 
transition in Syria.
    I am especially delighted to be here. I just returned from the 
region and am looking forward to talking about our work there as well 
as about the progress being made by the Syrian opposition.
    With each passing day, the regime is shrinking, as its grip on 
power and territory weakens. But the opposition's progress on the 
ground comes at a terrible cost. Syria has become one of the most 
devastating conflicts of the new century. More than 70,000 Syrians have 
been killed since the beginning of the conflict and millions forced to 
flee their homes.
    The United States is responding. We are providing humanitarian 
relief across Syria and the region; working to stop Assad and his 
regime; imposing sanctions that starve the regime of funds; helping the 
opposition prepare for a democratic transition that protects the rights 
of all the Syrian people; and working toward a negotiated political 
solution to end this conflict with a sustainable peace. We are 
undertaking all of these efforts in tandem with our partners across the 
globe and in the region.
                    the syrian vision for the future
    Saving the Syrian state from humanitarian disaster, extremist 
influences, or state fragmentation, will not be easy, but it is 
critical to protect our interests and those of our partners in the 
region.
    Many among Syria's minority communities, including Alawis, Druze, 
Christians, fear what the future holds. The Sunni majority is divided, 
fractious, and anxious to assert the rights so long denied them by the 
Assad regime. Iran's role in the conflict is especially pernicious, as 
it helps the Assad regime build sectarian militias and attracts 
Hezbollah and Iraqi militias to Syria.
    For Syria to survive and endure it must find a path that cuts out 
such foreign interference and instead provides for a tolerant society 
that supports regional stability and ensures the dignity of the Syrian 
people. To effectively make the transition beyond the Assad regime, the 
opposition will need a vision for a pluralistic Syria that abides by 
the rule of law, subordinates the military to civilian authority, and 
guarantees the rights of all of its citizens while preserving 
continuity of the state and its institutions.
    Syrians must plan for this for themselves. And they are starting to 
do so. Moaz al-Khatib, the president of the Syrian Opposition 
Coalition, is an imam from Umayyad Mosque, the largest mosque in 
Damascus. In a very public speech broadcast throughout the Arab world 
in December, President Khatib rejected extremist ideologies and urged 
all Syrians, including Alawis, to join the opposition and build a new 
Syria.
    General Salim Idriss, Chief of Staff of the Syrian Opposition's 
Supreme Military Council, and his regional commander, Colonel Akidi, 
have appealed to Alawis, who are the backbone of Assad's remaining 
support: Join us. Don't fight us. We're not fighting you. Join us.
    President Khatib also wrote an open letter to the Syrian Christian 
community in February laying out a vision of respect for the dignity of 
all Syrians. He rejected the idea of a special tax on Christians, as 
advocated by some Syrian extremists harkening back to the medieval 
Caliphate.
    This is the tolerance and coexistence that Syria needs--and what 
the vast majority of Syrians want.
                       our transition assistance
    The Syrians have to do this for themselves--the international 
community cannot do it for them. What we can do is pave the way for 
this process. That is a large part of what the United States is doing 
now.
    This transition assistance is both supporting the transition away 
from Assad and helping to ensure that it promotes human freedom and 
tolerance.
    The Assad regime has created an environment that fuels the growth 
of extremism, and al-Qaeda-linked groups are working to exploit the 
situation for their own benefit. There is a real competition now 
between extremists and moderates in Syria and we need to weigh in on 
behalf of those who promote freedom and tolerance.
    Since December 2012, the United States, along with our 
international partners, has recognized the Syrian Opposition Coalition 
as the legitimate representative of the Syrian people. Comprised of 
diverse representatives inside and outside Syria, the Coalition is 
committed to a democratic, inclusive Syria free from the influence of 
violent extremists.
    We are providing $117 million in nonlethal, transition assistance 
to the Coalition and a range of local councils and grassroots groups 
inside Syria to build a network of ethnically and religiously diverse 
civilian activists from the top down as well as the bottom up. These 
funds are strengthening local councils, civil society groups, unarmed 
political activists, and free media to improve governance, 
accountability, and service delivery at the subnational and national 
level.
    For instance, the United States has supplied Syrian activists with 
thousands of pieces of communications gear. One group of lawyers used 
this equipment to form the Free Lawyers' Union, which has now taken 
responsibility for legal affairs within the Local Council for the 
Governorate of Daraa.
    We boosted private radio station signals, extending the reach of 
broadcast on FM stations, and funded media outlets. Those media 
platforms were used to address sectarian violence and issue public 
service messages on best practices in the event of chemical weapons 
exposure.
    The United States also trained over 1,500 local leaders and 
activists--including women and minorities--from over 100 different 
provincial councils. One recent graduate played a critical role in the 
Aleppo local council elections last month. He reached out to 240 
delegates across Aleppo's liberated areas and broadcast the election--
bringing credibility, transparency, and accountability to the process. 
These trainees are improving the ability of local committees and 
councils from Damascus to Deir al-Zour in the east to Idlib in the 
northwest to better provide for the needs of all members of their 
communities.
    We are not doing this work alone. From Norway to Australia, the 
U.K. to Korea, we are working across the globe with our partners to 
coordinate our efforts.
                            a turning point
    But as Ambassador Jones mentioned, with President Khatib indicating 
his likely resignation at the end of his term in May, the Coalition is 
at a crucial leadership juncture. Ghassan Hitto, the Coalition-elected 
Prime Minister, has been a strong partner in coordinating assistance, 
but is still establishing himself in his new role. International 
support for the Coalition is crucial in order to bolster its capacity 
to provide support to the Syrian people and provide a more stable, 
appealing alternative to extremism.
    That is why we are focusing our latest assistance, on fortifying 
the work of the Coalition in Syria and cementing its ties with local 
Syrian groups. For instance, we will target assistance to the Coalition 
to reinforce local councils that meet the needs of their citizens in 
areas no longer controlled by the regime.
    USAID will provide through the Coalition and local councils short-
term assistance for urgent needs, such as fuel, heaters, and 
nutritional and educational supplies for children. USAID will also 
provide the Coalition with technical experts to help it manage 
essential services and light infrastructure. These experts will help 
with technical assessments and track multidonor rehabilitation efforts.
    We hear regular reports about the lack of security in newly 
liberated areas, and thus we have adjusted our programs to enable us to 
support civilian security through training and nonlethal equipment to 
reduce the likelihood that extremists will exploit security vacuums in 
liberated areas.
    Supreme Military Council (SMC) Chief of Staff, General Idriss, and 
those under his command have demonstrated a commitment to a tolerant 
and inclusive vision of Syria. In the coming weeks we will begin 
providing them and Coalition food and medical kits for distribution to 
those in need to signal our support for the moderate and responsible 
elements of the armed opposition.
    Finally, to mitigate the risk that our assistance might end up in 
the hands of extremists, we will continue to rely on the effective, 
formal processes that have been established across various agencies in 
the government to vet the recipients of U.S. assistance.
                               conclusion
    Syria need not face years of civil war, but Syrians will have to 
stand up to promote the respect of the dignity, and rights for each and 
every one of their fellow citizens. It won't be easy. The Assad regime 
favored one community over the majority for decades, and that legacy 
now leaves many in the country nervous about the future. Syrians must 
develop and promote a vision of what freedom means in a new Syria, and 
they must develop and promote an understanding of how regional 
stability will help them rebuild their shattered country.
    And they can. We are working to give them that chance by helping 
them prepare for an inclusive, democratic transition. We continue to 
believe that the best solution to the Syrian crisis is a negotiated 
political transition. The Geneva Communique calls for a transitional 
governing body with full executive powers and formed on the basis of 
mutual consent.
    We look forward to working with Congress throughout this process. 
Thank you again for the invitation to testify before your committee 
today. I am happy to take your questions.

    The Chairman. Secretary Glaser.

   STATEMENT OF HON. DANIEL GLASER, ASSISTANT SECRETARY FOR 
 TERRORIST FINANCING AND FINANCIAL CRIMES, U.S. DEPARTMENT OF 
                  THE TREASURY, WASHINGTON, DC

    Secretary Glaser. Thank you, Chairman Menendez, Ranking 
Member Corker, distinguished members of the committee. Thanks 
for inviting me to testify today on our efforts at Treasury to 
address critical national security concerns in Syria.
    I would like to commend you, Mr. Chairman, and the entire 
committee for the strong leadership you have shown on this 
subject.
    My remarks today will focus on three aspects of our effort: 
first, U.S. and international sanctions on the Assad regime; 
second, our assessment, as far as possible, of the impact of 
sanctions implemented to date; and third, our concern about the 
presence of extremist groups in Syria like Hezbollah and the 
al-Nusra Front.
    U.S. and international sanctions are designed to deprive 
the Assad regime of the financial means it requires to 
brutalize the Syrian people. The United States has steadily 
increased pressure on the regime since the beginning of the 
Syrian uprising in March 2011. President Obama has issued five 
Executive orders, each imposing new sanctions in response to 
the violence in Syria. Under these measures, the United States 
has designated close to 100 individuals, including President 
Assad himself, and exposed those like the IRGC Quds Force that 
support the regime and commit human rights abuses in Syria. 
These actions complement measures taken by Treasury and across 
the administration to identify Syria as a center for terrorist 
financing, weapons of mass destruction proliferation, regional 
destabilization, and public corruption.
    Strong U.S. sanctions are only a first step. Ideally the 
robust U.S. sanctions program would be complemented by U.N. 
measures, but sadly consensus at the United Nations Security 
Council has not been reached. Nevertheless, the European Union, 
the Arab League, and a whole host of other countries have 
imposed separate, autonomous measures on the Assad regime. EU 
sanctions target Syrian oil exports, more than 90 percent of 
which went to Europe before the conflict began. The Arab League 
has also demonstrated impressive leadership, approving a host 
of measures designed to isolate the Assad regime. Together with 
the United States and others, these countries have worked 
within the Friends of the Syrian People framework to increase 
pressure on the Syrian regime.
    Moreover, U.S. and international sanctions are having an 
impact on the Assad regime's ability to access the funding it 
requires even as the civil war devastates the economy. Oil 
revenue from the EU previously accounted for about one-third of 
the government's revenue, tourism for about another one-third 
of the government's revenue. All of that has dried up. By 
targeting the Commercial Bank of Syria, the Syrian 
International Islamic Bank, and the Central Bank of Syria and 
lobbying others to do the same, Treasury has hampered the 
regime's ability to finance the repression of the Syrian 
people.
    However, more work remains to be done. The apparent 
willingness of states like Iran to provide support to the 
regime undermines the efforts of the rest of the international 
community to end the violence and speed a democratic 
transition. The United States has pressed relevant governments 
to cease financial and other support to the Assad regime, and 
we will continue to do so. Treasury has been particularly 
focused on bringing this message directly to the private sector 
and to financial institutions.
    Another problem Treasury is focused on is the growing 
presence of groups like Hezbollah and the al-Nusra Front in 
Syria. In 2012, Treasury designated Hezbollah and the group's 
Secretary General, Hasan Nasrallah, for its role in training, 
advising, and supporting Assad's forces as they mounted attacks 
against the Syrian population. These actions, along with 
Treasury's exposure of Hezbollah's links to an international 
narcotics trafficking and money laundering network and the 
group's apparent involvement in plots in Bulgaria and Cyprus, 
highlight Hezbollah's moral bankruptcy. There can be no doubt 
of their true nature or the threat they pose to their neighbors 
and others around the world.
    In December, Treasury also took action against the al-Nusra 
Front, designating two senior leaders for acting on behalf of 
Al Qaeda in Iraq. This action was taken in coordination with 
the State Department's listing of the al-Nusra Front as an 
alias for 
Al Qaeda in Iraq.
    On April 9, just earlier this week, the leader of al-Qaeda 
in Iraq announced the group's merger with the al-Nusra Front 
under a new name, the Islamic State in Iraq and the Levant, 
underscoring the danger this group poses for Syria and for the 
world.
    In conclusion, the United States and our partners have done 
a great deal to establish a broad and far-reaching 
international sanctions framework targeting the Assad regime, 
and we will continue our efforts to make that framework as 
strong as possible. Sanctions are not a silver bullet in ending 
the Assad regime's vicious war on its own people, but as with 
any national or international security challenge, sanctions are 
playing an important role in a broad and comprehensive 
strategy.
    I look forward to working with the committee on these 
critical issues, and I would be pleased to answer any questions 
you might have. Thank you, Chairman.
    [The prepared statement of Secretary Glaser follows:]

        Prepared Statement of Assistant Secretary Daniel Glaser

                              introduction
    Chairman Menendez, Ranking Member Corker, distinguished members of 
the committee, thank you for inviting me to testify today on our 
efforts at the Department of the Treasury to address critical national 
security concerns in Syria: namely, the perpetuation of the violence 
against the Syrian people by the Assad regime. I would like to commend 
you, Mr. Chairman, and this entire committee for your strong leadership 
on this topic, including by focusing today's discussion on these vital 
issues.
    My remarks today will focus on Treasury's efforts, working closely 
with the State Department and our colleagues across the administration, 
to limit the Assad regime's access to the international financial 
system through economic sanctions; our engagement with the 
international community to isolate the Syrian Government; our 
assessment, as far as possible, of the impact of sanctions implemented 
to date; our concerns about foreign interference in the conflict and 
the presence of extremist groups like the al-Nusra Front; and our 
priorities and next steps. The United States Government is moving 
aggressively to facilitate an end to the conflict in Syria, preferably 
through negotiated political transition from the Assad regime to a 
competent and representative transitional governing authority. U.S. and 
international sanctions are a key component of the broader U.S. and 
international community's effort to achieve this goal, and are designed 
to deprive the Assad regime of the financial means it requires to 
support the relentless campaign of violence against the Syrian people.
U.S. Sanctions Regime on Syria
    In the months immediately following the beginning of the Syrian 
uprising in March 2011, President Obama issued three Executive orders 
(E.O.), each imposing new sanctions in response to the violence in 
Syria.
    On April 29, 2011, President Obama signed E.O. 13572, imposing 
sanctions on certain persons and providing for the imposition of 
sanctions on certain persons determined to be responsible for human 
rights abuses in Syria, including those related to repression. On May 
18, 2011, in response to the continued escalation of violence against 
the Syrian people, the President signed E.O. 13573, sanctioning Syrian 
President Bashar al-Assad and senior officials of Assad's government. 
And on August 17, 2011, President Obama issued E.O. 13582, imposing 
full blocking on all property and interests in property of the 
Government of Syria. President Obama followed the E.O. with a public 
call for Assad to step aside. E.O. 13582 generally prohibits 
transactions between U.S. persons and the Government of Syria, bans the 
export of U.S. services to and new investment in Syria, and takes aim 
at a revenue stream for the Syrian Government by banning the 
importation into the United States of, and transactions or dealings by 
U.S. persons in, Syrian-origin petroleum and petroleum products.
    More recently, the President issued two Executive orders expanding 
Treasury's and the State's ability to target human rights abusers and 
sanctions evaders with respect to Iran and Syria. On April 23, 2012, 
the President issued E.O. 13606, blocking the property of persons 
determined to have operated information and communications technology 
in ways that could assist in serious human rights abuses by the 
Governments of Iran or Syria. On May 1, 2012, President Obama issued 
E.O. 13608, which authorizes Treasury to impose sanctions on foreign 
persons who violate certain prohibitions concerning Iran or Syria.
    These five Executive orders significantly expand the 
administration's ability to respond to the conflict in Syria. Along 
with our colleagues at the State Department, the intelligence 
community, and throughout the U.S. Government, as well as with our 
counterparts in the European Union (EU), the Arab League, Turkey, 
Japan, Australia, Canada, and elsewhere, we have used our authorities 
to isolate the Assad regime and key regime supporters, and to deprive 
the regime of the resources it needs to fund its continued repression 
of the Syrian people. To date, close to $80 million of Syrian regime 
funds in the U.S. have been frozen pursuant to these Executive orders. 
The U.S. alone has designated close to 100 individuals and entities 
pursuant to these Syria-related Executive orders, thus publicly 
identifying them as perpetuating the brutal conflict in Syria, blocking 
their participation in the U.S. financial system and disrupting their 
access to financial services beyond the United States.
    The Syrian regime had been subject to myriad sanctions for a range 
of illicit activity long before the start of the current conflict. 
These sanctions, which are still in place, identify Syria as a 
permissive environment for terrorist financing and facilitation, a 
weapons proliferation hub, a foreign policy actor that threatens its 
neighbors, and a financial sector rife with corruption.

  <bullet> Terrorist Financing: Syria has been listed by the State 
        Department as a state sponsor of terrorism since 1979. In March 
        of 2006, Treasury identified the Commercial Bank of Syria (CBS) 
        and its subsidiary, Syrian Lebanese Commercial Bank, as a 
        financial institution of primary money laundering concern under 
        Section 311 of the USA PATRIOT Act, noting concerns regarding 
        CBS' facilitation of terrorist financing as a major reason for 
        the identification. From 2007 to 2009, Treasury took multiple 
        actions under its terrorism authority, E.O. 13224, against the 
        foreign fighter facilitation hub that funneled resources and 
        manpower to al-Qa'ida in Iraq via Syria. In 2008, the U.S. 
        Government created a new authority in order to address the 
        threat to peace and stability in Iraq emanating from Syria--
        E.O. 13438--and Treasury designated five Syrian individuals and 
        two entities pursuant to the E.O. that year. Treasury took 
        separate action under E.O. 13315 against six Syria-based 
        individuals for their ties to the former Iraqi regime.
  <bullet> Weapons of Mass Destruction (WMD) Proliferation: The 
        Scientific Studies and Research Center (SSRC) was listed under 
        E.O. 13382 in June of 2005 for developing and producing 
        nonconventional weapons and the missiles to deliver them. The 
        Higher Institute of Applied Science and Technology (HIAST), the 
        Electronics Institute, and the National Standards and 
        Calibration Laboratory (NSCL) were designated under that same 
        Executive order as subordinates of SSRC in January of 2007. 
        Treasury also designated CBS, and its subsidiary the Syrian 
        Lebanese Commercial Bank, on August 10, 2011, for the provision 
        of financial services to Syrian and North Korean entities 
        previously sanctioned by the U.S. for facilitating WMD 
        proliferation. Most recently, Treasury designated the Syria 
        International Islamic Bank (SIIB) on May 30, 2012, pursuant to 
        E.O. 13382 for acting for or on behalf of CBS and providing 
        services to its subsidiary, Syrian Lebanese Commercial Bank. In 
        July of 2012 Treasury designated five front companies working 
        on behalf of SSRC, Industrial Solutions, Mechanical 
        Construction Factory, Handasieh (a.k.a. General Organization 
        for Engineering Studies), Business Lab, and Syrian Arab Company 
        for Electronic Industries (aka Syronics) pursuant to E.O. 13382 
        for supporting the Syrian regime's proliferation activities. 
        The Department of State also designated these same five 
        companies pursuant to E.O. 12938. In September 2012, Treasury 
        designated the Army Supply Bureau pursuant to E.O. 13382 and 
        13582.
  <bullet> Threatening Neighbors: From 2005 to 2007, Treasury 
        sanctioned several Syrian officials for their military and 
        security interference in Lebanon and their support to 
        designated terrorist entities in Lebanon pursuant to E.O. 
        13338. Treasury also targeted several individuals under E.O. 
        13441 who were part of the Syrian regime's attempts to 
        interfere in Lebanon's political processes.
  <bullet> Public Corruption: The U.S. took action to combat the public 
        corruption evident in Syria, and Treasury designated Bashar al-
        Assad's brother-in-law, Rami Makhlouf, and companies he owned 
        in 2008 under E.O. 13460, which targets individuals and 
        entities determined to have benefited from or contributed to 
        public corruption of senior Syrian regime officials.
International Cooperation
    While the U.S. Government has implemented our own robust set of 
measures, it is important that we continue working with our partners 
around the world to multilateralize the effort to pressure the Assad 
regime. Ideally, such efforts would start at the United Nations. 
Unfortunately, consensus on a United Nations Security Council 
Resolution (UNSCR) has not been reached. Nevertheless, the United 
States has worked with the EU, Arab League, and a whole host of 
countries to impose separate autonomous measures on the Assad regime 
and has worked within the framework of the Friends of the Syrian People 
International Working Group on Sanction (FoSP IWGS) to build a robust 
international sanctions regime designed to pressure the Syrian 
government and bring about an end to the conflict.
    Perhaps the most impactful measures have been imposed by the EU. 
Since the EU was one of Syria's most significant trading partners prior 
to the uprising, EU sanctions in particular have dealt a severe 
economic blow to the Assad regime's finances. Prior to the start of the 
Syrian uprising in March 2011, the Assad regime had generated about 
one-third of its revenue from the oil sector, with the EU accounting 
for more than 90 percent of Syria's crude oil exports. Since the 
October 2011 implementation of an EU embargo on Syrian petroleum 
exports, the regime has struggled to find alternative markets for 
selling its heavy crude. In addition to the ban on the import or 
transport of Syrian petroleum, and in close consultation with the U.S. 
Government, the EU levied sanctions that largely parallel the U.S. 
sanctions regime, including restrictions on transactions with the 
Commercial Bank of Syria (October 2011) and the Central Bank of Syria 
(February 2012), bans on the provision of certain financial services 
(including insurance), arms, and military equipment, prohibitions on 
the provision of currency services for the Syrian Government, and bans 
on the direct or indirect sale, purchase or brokering in gold, precious 
metals and diamonds.
    The Arab League has also taken unprecedented steps, including 
approving measures that call on member states to block nonessential 
commodities, halt transactions with the Central Bank of Syria, end 
financing for Arab-funded projects in Syria, a travel ban and asset 
freeze on regime elites, and a ban on commercial flights. Some Arab 
countries have gone even farther, with Saudi Arabia and Qatar 
demonstrating leadership within the Arab League and at the U.N., 
lobbying for action from others in the international community. The 
Government of Qatar further demonstrated its regional leadership and 
willingness to go a step further by working with Treasury to take 
coordinated action on May 30, 2012, to designate the Syrian 
International Islamic Bank. Treasury continues to encourage its Arab 
League partners to implement these unprecedented sanctions effectively. 
As recently as last month I traveled to several countries in the Gulf 
to discuss these issues.
    Others have also taken action. Turkey, Syria's neighbor and an 
important trading partner, has imposed sanctions including targeted 
bans and asset freezes of high-ranking regime figures and associated 
businessmen, a freeze of official lines of credit, ending relations 
with the Central Bank of Syria, halting new transactions with the 
Commercial Bank of Syria, and an embargo on military aid, arms sales, 
and weapons transit to the Syrian regime. Others, like Canada, Japan, 
Switzerland, and Australia have also taken action against regime 
officials and key Syrian industries, including asset freezes, an 
embargo on arms sales and Syrian-origin petroleum purchases, and travel 
bans.
    In addition to these independent actions, the EU, Arab League, and 
others have worked together with the United States within the FoSP IWGS 
framework to coordinate efforts to increase the pressure on the Syrian 
Government and hasten the end of the conflict. Since the inaugural 
working group meeting in Paris on April 17, 2012, the FoSP IWGS has 
been committed to the sovereignty, independence, national unity and 
territorial integrity of Syria and has called for effective 
implementation of sanctions against the Assad regime in Syria in order 
to exert strong pressure on the Syrian regime and to bring about an end 
to the violence and enable a democratic transition. In close 
cooperation with our colleagues at the State Department, Treasury has 
played a key role in international engagement on Syria through the 
Friends of the Syrian People process, contributing to the U.S. 
Government's effort to coordinate broader and more effective sanctions 
implementation among like-minded countries. Since April 2012, the 
sanctions working group has met five times at various locations around 
the world, including Washington, DC. This working group last met 
February 26, 2013, in Bulgaria, and in this forum, 56 countries, as 
well as the EU and Arab League, agreed to refrain from the purchase of 
Syrian phosphates, a considerable source of revenue for the Syrian 
Government, as well as halting the printing or provision of currency 
for the Syrian government, and banning arms shipments and military 
technical assistance to the Syrian regime. The group also committed to 
preventing the Syrian Government from acquiring technology that can 
disrupt communications or track individuals in Syria and opposing the 
continued provision of financial support to the regime, as well as to 
prepare for transition by reminding financial institutions of the need 
to protect against the flight of regime-related assets and declaring 
the willingness of the group to address Syria's outstanding sovereign 
debt, in accordance with internationally established processes. 
Treasury and the State Department continue to engage our international 
partners on these issues.
Impact of Sanctions
    Even in the midst of a devastating civil war, U.S. and 
international sanctions are having a significant impact on the Assad 
regime's ability to access the international financial system and raise 
critical foreign currency revenue. The EU previously accounted for more 
than 90 percent of Syria's crude exports. Thus the EU actions blocking 
the purchase of Syrian-origin petroleum products and banning new 
investment in the Syrian petroleum industry have had a massive impact 
on the regime's revenue stream. By targeting the Commercial Bank of 
Syria and Syria International Islamic Bank, in addition to the Central 
Bank of Syria, and lobbying other members of the international 
community to do the same, we have hampered the regime's ability to 
continue to finance its repression of the Syrian people. Another 
significant source of revenue and foreign currency came from tourism, 
which has dried up since the violence started almost 2 years ago. More 
broadly, the real GDP declined approximately 19 percent in 2012, and 
the official rate of the Syrian pound has depreciated more than 50 
percent against the U.S. dollar since January 2011, though the official 
rate probably understates the rate of depreciation on the black market.
    Treasury has also engaged directly with the governments and private 
sectors of countries that border Syria, such as Lebanon, Jordan, Iraq, 
and Turkey, which are particularly vulnerable to attempts by the Syrian 
Government to evade U.S. and international sanctions. Treasury has 
consistently warned private financial institutions in this region of 
the risks of dealing with the Assad regime and called upon them to 
refrain from providing financial services to the Syrian Government. In 
particular, given the regional prominence of Lebanon's financial sector 
and close historic ties between Syria and Lebanon, Treasury focused on 
maintaining an ongoing dialogue with Lebanese authorities and 
representatives of the Lebanese private sector to underscore the 
importance of vigilance with respect to Syria.
    The U.S. and our partners have employed a variety of authorities to 
deprive the Assad regime of revenue, but absent a U.N. Security Council 
Resolution that imposes global sanctions on Syria, gaps still exist. 
The apparent willingness of states like Iran, and others to provide 
financial, shipping, or other services to the regime undermines the 
efforts of the rest of the international community to bring about an 
end to the violence and hasten a democratic transition. The 
administration has pressed relevant governments and companies to cease 
financial and other support to the Assad regime and work with the 
international community to find a peaceful solution to the conflict, 
and will continue to do so, though our views on and approach to 
resolving this conflict still diverge.
Foreign Influence and Extremists
    We have also used our authorities to expose the involvement of 
foreign actors in Syria. In particular, Treasury has focused on the 
significant role played by Hezbollah and Iran in Syria. On August 10, 
2012, Treasury designated Hezbollah pursuant to E.O. 13582 for its role 
in training, advising, and supporting Assad's forces as they mount 
attacks against the Syrian population. On September 13, 2012, Treasury 
also designated Hasan Nasrallah, Hezbollah's Secretary General, 
specifically for his role in overseeing Hezbollah's actions in support 
of the Syrian regime. These actions, and the public burial of Hezbollah 
fighters killed in Syria, highlight Hezbollah's activities within Syria 
and its integral role in the continued violence the Assad regime is 
inflicting on the Syrian population. Under the Assad regime, Syria has 
been a longstanding supporter of Hezbollah--providing safe haven to 
Hezbollah and routing weapons, in many cases from Iran, to Hezbollah in 
Lebanon. Hezbollah has returned the favor, by providing direct training 
of Syrian Government personnel inside Syria, advice, and extensive 
logistical support to the Government of Syria's ruthless efforts to 
fight against the opposition. Hezbollah also has played a substantial 
role in efforts to expel Syrian opposition forces from areas within 
Syria.
    In conjunction with our activities to disrupt Hezbollah's support 
of the regime in Syria, Treasury has taken a number of actions that 
highlight the group's moral bankruptcy and its efforts to expand its 
regional influence and conduct terrorist activities worldwide. 
Treasury's exposure of Hezbollah's links to an international narcotics 
trafficking and money laundering network, the February 2013 
announcement by Bulgarian officials identifying Hezbollah as the party 
responsible for the July 2012 bombing in Burgas, and the March 2013 
conviction in Cyprus of a Hezbollah operative for plotting attacks 
there, belie Hezbollah's claims of being purely a Lebanese political 
movement, and provide further proof of Hezbollah's true intentions and 
the threat they pose to their neighbors.
    Iran's pernicious interference in Syria has not been simply through 
proxies and partners such as Hezbollah, but has been direct as well. 
The Iranian Islamic Revolutionary Guard Corps-Qods Force (IRGC-QF,) 
which facilitates Iran's material support to the Syrian General 
Intelligence Directorate (GID), and was listed for sanctions in the 
annex to E.O. 13572, which targets those responsible for human rights 
abuses in Syria. It had been previously sanctioned under E.O. 13224 in 
October 2007 for its support to terrorists, including Hezbollah. Qasem 
Soleimani, the long-time commander of the IRGC-QF, was also 
individually designated last year pursuant to E.O. 13572. In addition 
to the actions taken against the IRGC-QF and Qasem Soleimani in 2011 
under E.O. 13572, the United States has repeatedly exposed Iran's 
support for the ongoing violence perpetrated by the Syrian Government. 
In June 2011, Treasury designated Iran's Law Enforcement Forces (LEF) 
which, like the IRGC-QF, provided material support to the Syrian GID; 
the LEF also dispatched personnel to Damascus to assist the Syrian 
Government in its efforts to suppress the Syrian people. In February 
2012, Treasury designated the Iranian Ministry of Intelligence and 
Security, Iran's primary intelligence organization, for providing 
substantial technical assistance to the Syrian GID. Iran also appears 
to be providing financial assistance to Damascus, including the 
reported provision of a $1 billion credit facility to allow Syrian 
importers goods and materials from Iran without the need for direct 
cash transfers.
    Treasury also sanctioned armed militia groups on December 11, 2012, 
that operate under the control of the Syrian Government, Jaysh al-
Sha'bi and Shabiha, as well as two Shabiha leaders, pursuant to E.O. 
13582. These militias have been instrumental in the Assad regime's 
campaign of terror and violence against the citizens of Syria. Jaysh 
al-Sha'bi was created, and continues to be maintained, with support 
from Iran and Hezbollah and is modeled after the Iranian Basij militia, 
which has proven itself effective at using violence and intimidation to 
suppress political dissent in Iran. Treasury will continue to expose 
Iran's direct support to the Syrian Government, as well as its 
continued support of Hezbollah's activities within Syria and throughout 
the region. These designations underscore that, despite the Iranian 
Government's public rhetoric claiming solidarity with the popular 
movements that have swept through the Arab world, Iran's official 
policy is in fact to export the same brutal and repressive tactics 
employed by the Iranian Government in Tehran in 2009.
    More recently, Treasury has used its authorities to address the 
growing danger of Islamic extremists in Syria. On December 11, 2012, 
Treasury designated two senior leaders of the Syrian-based al-Nusra 
Front, Maysar Ali Musa Abdallah al-Juburi and Anas Hasan Khattab, 
pursuant to E.O. 13224 for acting on behalf of Al Qaeda in Iraq (AQI). 
This designation was taken in coordination with the U.S. Department of 
State action to list the al-Nusra Front as an alias of AQI. On April 9, 
the leader of AQI, Abu Bakr al-Baghdadi, announced the merger of AQI 
and the al-Nusra Front under the new moniker, the Islamic State in Iraq 
and the Levant. AQI had been previously designated as a Foreign 
Terrorist Organization and a Specially Designated Global Terrorist 
(SDGT). As the Syrian people continue their struggle against the 
repressive Assad regime, al-Nusra Front has sought to exploit the 
instability inside Syria for its own purposes, using tactics and 
espousing an ideology drawn from AQI that the Syrian people broadly 
reject. Since November 2011, al-Nusra Front has claimed responsibility 
for nearly 900 attacks, killing and wounding hundreds of Syrians. These 
activities are attempts by AQI to hijack the struggles of the 
legitimate Syrian opposition to further its own extremist ideology. In 
addition to the goal of speeding the end of Assad's brutality, Treasury 
takes seriously our core mission of disrupting al-Qaeda, as well as 
disrupting Al Qaeda in Iraq and its affiliates like the al-Nusra Front, 
wherever they may seek to establish a foothold to develop a safe haven 
from which to conduct attacks internationally. As part of those 
efforts, we have persistently engaged regional partners who share our 
goals of preventing the spread of al-Qaeda-linked groups, and 
reinforced the dangers of providing support to groups inside Syria 
without putting in place the proper mechanisms for vetting assistance.
                               conclusion
    The United States, working with our partners, has established a 
broad and far-reaching sanctions framework targeting the Assad regime. 
Treasury will continue to implement the President's authorities to 
deprive the Assad regime of revenue and engage our foreign partners, 
working closely with the State Department, in an effort to continue to 
broaden and deepen the coalition taking action against Syria under the 
FoSP framework.
    We also recognize that after Assad steps aside, we will need to be 
ready both to help the legitimate new authorities rebuild the country 
and constrain those actors that either profit from continued bloodshed, 
like Iran and Hezbollah, or thrive on instability, like the al-Nusra 
Front.
    As part of our efforts to assist the National Coalition of Syrian 
Revolutionary and Opposition Forces (SOC), we have begun laying the 
groundwork for the lifting of sanctions, in order to facilitate Syria's 
economic recovery. Treasury has already issued a General License to 
allow nongovernmental organizations to support certain not-for-profit 
activities in Syria, including humanitarian projects, education, 
noncommercial development projects directly benefiting the Syrian 
people, and democracy promotion. Just last month, we issued another 
General License authorizing U.S. persons to export services, including 
money, to the SOC provided the money is not for a person designated by 
Treasury and goes through a specifically licensed account of the 
Coalition at a U.S. bank. Treasury has also begun to discuss 
appropriate debt relief, in accordance with internationally established 
processes, so that Assad's successors are not unduly burdened in their 
efforts to restore the country. We have also taken steps to prepare for 
asset recovery and protect against the risk of flight of proceeds of 
public corruption and regime assets. As we prepare for a time after 
Assad, we will caution our partners to remain vigilant and issue 
appropriate guidance to their financial sectors.
    Sanctions are not a silver bullet in ending the Assad regime's 
vicious war on its own people. But as with any national or 
international security challenge, sanctions are playing an important 
role within a broad and comprehensive strategy. Treasury is committed 
to continuing to use all our authorities to make these efforts as 
effective as possible. I look forward to working with Congress on these 
critical issues, and would be pleased to answer any questions you may 
have.

    The Chairman. Well, thank you all. Let me start off.
    Secretary Jones, you say no lethal weapons but a political 
solution. I think most analysis says that we are at a stalemate 
here. Assad has an absolute monopoly on air power, and he has a 
monopoly on artillery power. And as such, he probably believes 
that he can stay in the struggle for as long as it takes for 
him to stay in power; 70,000 dead, 4 million displaced 
according to the United Nations.
    What is the political solution that you envision?
    Ambassador Jones. Mr. Chairman, I agree with you that the 
prospects in Syria are not good. The fact that so many people 
are dying every day is a measure of the tragedy that is 
unfolding there. However, the discussion that we have had 
within the administration focuses on, for the most Syrians, how 
best to address this problem as far as the United States is 
concerned, to do it in the most comprehensive, responsible way 
in ways that result in something better for the Syrian people.
    As Ambassador Ford mentioned, we have spent a tremendous 
amount of time working with various elements of the Syrian 
opposition--the moderate Syrian opposition--as well as with the 
Free Syrian Army on, What is their political vision for the 
future of Syria? How would they organize themselves? How would 
they think in terms of how to connect with members of the 
Syrian regime who do not have blood on their hands? very much 
along the lines of the outline of the Geneva communique that we 
have talked about.
    The Chairman. I do not want to interrupt you except that my 
time is fleeting. I have a specific question. I have heard 
everything you have said, which is really a regurgitation of 
your testimony. What is the political solution that you 
envision or that we envision? Because at the end of the day, 
unless you change the tipping point here, unless you change the 
calibration--we have not convinced the Russians to change their 
views. The Iranians are in here. In fact, Ambassador Ford said 
their participation is pernicious. Sanctions have not 
significantly denied the regime to the point that it has 
changed their calculation. What is the political solution that 
we envision?
    Ambassador Jones. Well, there are several elements to it.
    One is to support the Syrian Opposition Coalition as much 
as we possibly can, to increase that. So there is a big effort 
underway that we are working on right now to get our partners 
to--involving ourselves and our partners to support the Syrian 
Opposition Coalition in ways that make it more clear that they 
are the ones who can garner the most assistance from the 
outside world. They are the ones who have the credibility. They 
are the ones who can provide the services to their communities 
inside Syria in ways that the Assad regime cannot.
    The second is you mentioned Iran and Russia. On Russia, we 
spend quite a bit of time working with the Russians to persuade 
them that the future of Syria requires their participation in a 
positive way to bring the Assad regime to the table. Secretary 
Kerry met with Foreign Minister Lavrov yesterday to work 
further on exactly this problem. The Russians, after all, did 
sign up to the Geneva communique that we issued last June 30, 
and we will keep working with the Russians to see if we cannot 
find ways to get their help to bring forward the kind of 
political negotiations that we are talking about.
    And third, we are working aggressively with our partners in 
the Arab world and in Europe to assure that we are giving the 
same political message to the Syrian opposition, that we are 
giving the same political message to Assad.
    And last, on Iran, we have spent a big effort with Prime 
Minister Maliki in Iraq to persuade him that the overflights 
that he is granting to Iranian flights is not only not in 
Iraq's interest, but it is certainly not in Syria's interest. 
It is what fuels the ability of Assad to carry on his military 
depredations on his own people.
    The Chairman. I appreciate your answer. I just do not see 
the political solution there at the end of the day.
    Let me ask you, Ambassador Ford. How confident are we that 
we can differentiate between groups that espouse our values and 
those who do not within Syria?
    Ambassador Ford. Mr. Chairman, we know a lot more about the 
armed opposition then we did 6 months ago or a year ago. It is 
dynamic. It is always evolving and new groups appear and there 
are mergers and others. But we do know a set of commanders, for 
example, the gentlemen that I met in Gaziantep on Tuesday, Col. 
Abdel Jabar al-Akidey, who has reached out to Alawis. He has 
reached out to Christians. His fellow commander in Idlib 
province next to Aleppo, Afef Soleimani, has done the same. 
People like them have facilitated United Nations humanitarian 
convoys to get to camps and to people in need. They have 
actually tamped down in some cases the extremists. For example, 
extremists tried to block the U.N. humanitarian convoys up in 
Idlib, and the gentleman I met actually intervened on the 
ground himself to stop that.
    So there are some people. Gen. Salim Idriss, the overall 
commander of the Syrian military command, the SMC, also has 
reached out. He issued a very widely viewed statement on the 
2-year anniversary of the Syrian revolution. It was all over 
Arabic satellite television networks where he urged the people 
who are still supporting Assad to stop and to join the 
opposition. So there are good people that we could work with, 
Senator.
    The Chairman. Finally, Secretary Glaser, let me just ask 
you. You heard from the Ambassador that Iran is particularly 
pernicious here with reference to our sanctions in that regard, 
and I want to know what success we are having there and 
particularly what success are you having--are you targeting 
privately held assets of Assad and the Makhlouf families and 
other wealthy Syrian insiders who may be keeping the regime 
afloat?
    Secretary Glaser. Yes. Thank you for the question, Mr. 
Chairman.
    And Ambassador Ford is exactly correct. As you have 
affirmed, Iran is playing a pernicious role in the situation 
both in terms of real boots on the ground and real assistance 
and financially as well.
    In terms of what we can do about it, I think there are two 
things that we are trying to do about it from a sanctions 
perspective, from a Treasury Department perspective. One is to 
use our authority to highlight the role that Iran is playing 
and to shine a light on it. And we have used our authorities to 
highlight the role that the IRGC Quds Force is playing in terms 
of human rights abuses in Syria, that Soleimani himself is 
playing with respect to Syria. We have highlighted the MOIS and 
a variety of other Iranian individuals who are supporting the 
activity in Syria.
    Beyond that--and, Chairman, you have been so important 
personally in just our broad sanctions efforts against Iran as 
a country and all of the things that we are doing across the 
board to try to deprive Iran of access to the international 
financial system, deprive Iran of its ability to repatriate its 
assets and to gain access to its reserves.
    As we do that and as we put more pressure on Iran, the hope 
would be that there would be fewer funds available to Iran to 
spend on Syria. I think it is an important data point for the 
Iranian people to understand that while the Iranian people are 
suffering hardships in terms of their own economy and in terms 
of the impact that their own mismanagement of their economy--as 
this is happening, I think that they should understand that 
Iran is, nevertheless, finding money to spend on aiding and 
abetting the murder of the Syrian people. And this is something 
that we are working very hard to counter.
    With respect to the second part of your question, of course 
we are targeting senior regime officials. We have targeted 
President Assad himself. We have targeted Rami Makhlouf. We 
have targeted other regime officials. In the United States, as 
I say in my written testimony, we have frozen $83 million. 
Whether that is a valid measure of success one way or the 
other, I do not know, but we are constantly monitoring the 
international financial system and looking for points of access 
that individuals like that would have. And certainly to the 
extent that we could get our hands on that money, we will 
freeze that money.
    The Chairman. Senator Corker.
    Senator Corker. Thank you.
    Again, thank you for your testimony, Ambassador Ford. I 
know there is no one that knows this conflict better than you. 
You spent a lot of time there and I know you were there in the 
beginning.
    And I want to go back. I know that Secretary Jones 
mentioned some of the activities that are underway. But I am 
just having difficulty understanding--and I think you would 
know best--how to articulate what our key strategic objectives 
are. And what principles guide our growing involvement? In 
other words, as we move along, we get involved in other ways. 
What are the principles that are driving that?
    Ambassador Ford.
    Ambassador Ford. Senator, there are, I think, four key 
things that we are working toward.
    First and foremost, we do not want Syria's very large stock 
of chemical weapons to be used or to fall into the hands of 
terrorist groups.
    Second, we do not want Syria to become a base for terrorist 
operations.
    In addition, it needs to be a source of stability in the 
region more broadly, and the large refugee flows out of Syria 
are actually straining the neighboring states now, and in 
particular straining Jordan and Lebanon, but to a lesser 
extent, Turkey and Iraq.
    And we do not think that these things can be achieved 
without a political transition, a negotiated political 
transition. If we do not have a negotiated transition, Senator, 
our view is that the move toward fragmentation in Syria will 
continue, that the sectarian divides that I already talked 
about in my oral testimony will actually get worse, and the 
risks to those interests that I outlined at the beginning will 
actually grow worse.
    Senator Corker. So it seems that our objectives have 
evolved. I know in the beginning it was sort of focused on more 
of an Arab Spring movement of democracy and a representative 
government, and now our objectives are more focused on making 
sure the chemical weapons are not utilized and it does not 
become a safe haven for terrorist activity or a hotbed of 
terrorist activity. So I know that that is quite an evolution 
from where we began.
    You talk about a political solution with the various 
groups. I know we have had all kinds of intelligence briefings. 
The characteristics of these groups are very, very different. 
Do you agree this conflict likely--even after Assad falls, a 
conflict will likely go on for some time without something we 
are unaware of today just between the groups themselves?
    Ambassador Ford. The groups that we are supporting, 
Senator, are talking about a vision of a country and a vision 
of a state that is inclusive and that will treat citizens 
equally regardless of their religion or their ethnicity. And 
that is the best opportunity we have to isolate extremists. 
There is absolutely an extremism problem in Syria, and it is 
incumbent on the Syrian Opposition Coalition and the Supreme 
Syrian Military Council, that I mentioned, to isolate those 
extremists.
    I do not think it will be easy to isolate those extremists, 
Senator, but I think there is an opportunity to contain the 
sectarian divisions with the kind of outreach that I mentioned 
from both the political opposition as well as the Syrian 
Supreme Military Command.
    Senator Corker. Who within our Government is the convening 
entity that is ensuring that all that we are doing there is 
working toward the end, if you will, that you have outlined in 
your comments?
    Ambassador Ford. Senator, we work directly with the 
National Security staff and the President.
    Senator Corker. But who convenes and makes sure on a daily 
basis that we are actually working toward the end that has been 
outlined in the opening comments and in questioning? Which 
entity is convening on a daily basis and making sure we are 
working toward those ends?
    Ambassador Ford. I would say it is the National Security 
Council, and Mr. Donilon and Mr. Blinken are in the day-to-day 
things. So, we at the State Department, have the lead on a lot 
of the political things I mentioned. The United States Agency 
for International Development is involved in a lot of the 
humanitarian issues. In some cases, the Department of Defense 
is involved in different kinds of planning that you have heard 
about before. There are many different U.S. Government 
agencies. Danny is here from the Treasury Department. So there 
are regular meetings of both the Deputies, Deputy Secretary 
level, as well as the Secretary level. So it is quite a 
coordinated effort now, Senator.
    Senator Corker. If I could, one more question, Mr. 
Chairman.
    Obviously, we are concerned about what happens inside 
Syria, but this is creating, as has been alluded to, 
instability in surrounding countries. And obviously, when many 
foreign fighters have made their way into Syria, what are we 
doing with the surrounding countries to ensure that when this 
conflict subsides or if it changes directions, we do not 
further--these countries are not further destabilized?
    Ambassador Jones. Senator, we work closely with each of the 
neighbors in particular, not least because of the refugee 
problems that Ambassador Ford talked about. One of the things 
that is very important in terms of the refugees is that each of 
the countries keep their borders open so that the refugee flows 
can continue.
    We have been very aggressive in a positive way about 
participating in U.N. appeals. The United States, as I 
mentioned, is the largest bilateral donor at this point with 
$385 million for Syria on the humanitarian side and on the 
program side.
    In addition, we work closely with a group of countries, as 
I mentioned, in the Arab League and in the European Union who 
are particularly focused on Syria on the issues that you 
mentioned, what about Turkey, what about Lebanon, what about 
Jordan, what about the issues that emanate from Syria that 
destabilize those countries. It was not an accident that 
Secretary Kerry went to each of those countries on his first 
trip to discuss exactly those kinds of issues with these 
countries.
    In recognition of the destabilizing effect of the huge 
number of refugees that have gone to Jordan, for instance, we 
have provided, as the President announced when he was there, 
$200 million to help Jordan deal with the influx of refugees. 
That is in addition to what we provide to the United Nations 
and the U.N. appeals. We are trying to do the same thing in 
Lebanon to a lesser extent.
    Senator Corker. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and thank you all 
for not only being here to testify but for your service during 
this very challenging time.
    The crisis in Syria continues. Every day more people are 
dying. More people are leaving Syria. I was recently in Turkey 
on the Syrian border at the Kilis refugee camp. You are right, 
Secretary Jones. It is fortunate that Turkey and Jordan are 
keeping their borders open. That is an extremely important 
point. Now over a million people have left Syria. Over a 
million people are dislocated within Syria. The circumstances 
are pretty dire.
    I must tell you, in talking to the opposition people that I 
met with in Istanbul and talking on the border, the view is 
that the international community, particularly the United 
States, is not doing very much. That is their perception. I 
understand what we are doing, but the perception is that we are 
not doing very much. And it was not so much whether the aid was 
lethal or not. It was just they did not know what we were 
doing.
    Ambassador Ford, you mentioned the point that we know who 
the good players are in the opposition, but the concern is that 
whatever support we give--will that end up in the hands of 
extremists? We do not have boots on the ground. We do not have 
people on the ground. We do not really have a good sense as to 
what happens after the aid that we provide enters Syria itself. 
And their extremist elements seem to be growing and becoming 
more effective within the opposition, which has many of us very 
concerned.
    So we want the Assad regime to end. We want Mr. Assad at 
The Hague to be held accountable for his war crimes. That is 
absolutely clear. And we want a stable government in Syria that 
respects the rights of its citizens.
    But as Senator Corker said, our objective is to make sure 
chemical weapons are not used. Our objective is to make sure 
that Syria does not become a safe haven for terrorist 
organizations. Yet, it looks like perhaps under the umbrella of 
the opposition that extremist groups are finding a place to 
operate.
    What can you tell us about our objectives here, our plans 
here to make sure that the people that we are helping will not 
end up supporting extremist terrorist activities within Syria 
that could be used against our interests?
    Ambassador Ford. Senator, you have stated it exactly right, 
that we have a strategic goal, a stable Syrian Government which 
respects the rights of all of its citizens that is inclusive. 
We think that that kind of government, that kind of state 
offers the best prospect of preventing the proliferation of 
chemical weapons to terrorist groups. That kind of state offers 
the best chance of isolating extremists and containing them and 
ultimately getting Syria rid of them. And that kind of state 
offers the best chance for working with the other states of the 
region to promote regional peace and stability. So that is, 
indeed, our strategic goal, this kind of a government.
    Now, you have asked what kinds of measures are we taking or 
what kind of steps are we taking to make sure that assistance 
we provide to armed opposition groups does not fall into bad 
hands. I can tell you that a great deal of effort has been made 
by different parts of the U.S. Government to understand the 
armed opposition. And as I said, it evolves. It is not a static 
thing. And so we track those developments extremely carefully. 
The commanders that I mentioned, Salim Idriss, Abdel Jabar al-
Akidey, and others from the Supreme Military Council--we have 
watched their track record, Senator, for many months now. I 
have talked to them many times. I think some of the members of 
this committee have talked to some of them. We have seen what 
they have done on the ground, whether it be in terms of 
outreach, whether it be in terms of assisting United Nations 
personnel deliver humanitarian aid. And so we can work with 
them.
    Senator Cardin. Do we have the ability to track how our 
assistance is being handled within Syria?
    Ambassador Ford. We do not have, as you would put it, 
Senator, boots on the ground, but we will be able to get a very 
good sense of where the assistance is going.
    Let me put it to you this way, Senator. We will be able to 
triangulate and understand where it goes.
    Ambassador Jones. May I just add a little bit of detail? 
No. 1, we do a tremendous amount of vetting. We do very careful 
vetting on all of the organizations and the people in those 
organizations to whom we provide assistance. As we provide 
grants, as we sign grants with these organizations, part of the 
grant is an accountability process so that the grantees, our 
implementing partners, are required to report back to us with 
evidence of how they have used the assistance and the materials 
that we provide them. And then separately, we have an 
independent review of people on the ground, third parties, who 
can come back and tell us whether the assistance has been used 
in the way that it was intended to be used. So the fact that we 
do not have boots on the ground is a problem, but we have 
worked around that by having these other devices that we use in 
order to be as certain as we possibly can be that our 
assistance is used in the way it is intended to be used.
    Senator Cardin. Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    My statements on Syria have been reported. So people know 
that I believe in a more forward-leaning policy with regard to 
Syria. But I was hoping to enlist your help reaching folks back 
home and elsewhere that perhaps do not follow this on a daily 
basis but have asked me certain questions about it.
    The first question I get is--and I hope you will help me to 
answer them--Why do we care? What is in the interest of the 
United States in this conflict happening halfway around the 
world? There are civil wars everywhere. Why is this one 
important for us to be engaged in at any level? What would you 
say to them? And I think the question is for all of you.
    Ambassador Jones. Let me start.
    In the first instance, I would argue and explain to our 
American colleagues that it is very important that the United 
States allies in the region also be in a situation that is safe 
and secure for them, along the lines that we discussed just a 
couple of minutes ago.
    But in addition to that, it is very important to all of us 
in the United States that there not be a country in the region 
that can be used by extremist organizations to plot against us 
once again. No. 2.
    No. 3, it is also very important to all of us that the 
chemical weapons, the very large amount of chemical weapons 
that the Assad regime has, not be allowed to get into the hands 
of people who could use them against our allies in the region, 
our friends in Europe, or us.
    Senator Rubio. Just to summarize, the reason why it is in 
the national interest of the United States is because, No. 1, 
we do not want our allies, our strong allies, in the region, 
Israel, Jordan, Turkey, et cetera, to feel threatened by this; 
No. 2, because we do not want there to be created an unstable 
environment that can be used as a staging ground for attacks 
against the United States, both at home and around the world; 
and No. 3, because it is a nation awash with very dangerous 
weapons, and those weapons can be transferred to all sorts of 
bad actors around the world to be used against our interests. 
Is that accurate?
    Ambassador Jones. Yes.
    Senator Rubio. I just wanted to make sure. All right. Good.
    And then the second question that I get asked about--well, 
let me segue to the third one first, and this is a concern that 
I have.
    And that is, that Syria, as we know it--and maybe this is 
best for you, Ambassador Ford, having spent so much time there. 
The nation of Syria, as we know it, the lines that have been 
drawn and so forth, was really a creation of Western powers and 
the end of the mandate in that region, et cetera. Is there a 
national Syrian identity that can form a nation in the 
aftermath of a fall? I think that is the question that I have 
always had and I wondered. Is this a bunch of people that we 
forced to live together that do not really belong together? Or 
is there a national Syrian identity that can somehow rally 
people around?
    Ambassador Ford. Senator, one of the books I read in 
college years ago was called ``Tribes with Flags'' by an ABC 
news correspondent named Charlie Glass. Syria absolutely was 
created out of the wake of World War I and the collapse of the 
Turkish Ottoman Empire. But fast forward 100 years and a Syrian 
national identity has emerged on the basis of several things.
    No. 1, there is a particular Syrian dialect of Arabic that 
is different from other dialects. And so one Syrian talking to 
another knows when he is talking to a Syrian versus some other 
person from the region.
    Second, there is a pride among Syrians for both the 
multiconfessional and the multiethnic nature of their society 
which actually goes back millenniums. There is a very ancient 
Christian community there. There is a very ancient Shia 
community there, and there is a great deal of pride in that. 
The sectarian divides, which the regime has fostered, I think 
put that at risk, but I absolutely believe that it can be put 
back together. And I think more importantly, Senator, it does 
not really matter what I think. It matters what Syrians think. 
And I have not met a Syrian yet who thinks the country should 
be divided. Instead, 100 percent of the people I talked to 
without exception say it needs to be a free country and a state 
that does not divide people but instead celebrates the 
diversity of the society itself.
    Senator Rubio. Thank you.
    And my last question is with regard to the opposition. It 
has been touched upon a little bit lately. The general 
perception among many people here in the United States seems to 
be that the opposition is replete with anti-American, anti-
Western terrorist elements that we would be empowering if we 
were to get engaged, et cetera.
    My understanding, and as you have outlined today, is it is 
much more complex than that. There is certainly an element on 
the ground that espouses these views, and unfortunately, they 
happen to be the best armed, the best equipped, and the best 
organized although that may be changing. But my understanding--
and I think it has been started to be reported here in the 
media. In fact, it might have been even in the article today--
is that as soon as this conflict ends and, in fact, before this 
conflict even ends, a second conflict is already emerging on 
the ground in Syria, and that is between these opposition 
groups for both influence control and power in the region.
    My view of it has been that we would rather the winners of 
that secondary conflict, in essence, the best organized, the 
best equipped, and the best empowered group in Syria in the 
opposition, be the people that are somewhat reasonable and view 
the world the way we do as opposed to some of these more 
radical elements.
    What is the status of that secondary conflict? And what 
steps are we taking to ensure that the folks who are best 
organized, the best equipped in the aftermath of the fall of 
Assad and even before are those who we think we can work with 
the best?
    Ambassador Ford. You have hit it right on the head, 
Senator, that there is a competition now in Syria between 
moderate forces--I am going to call them moderates--versus 
extremists, the 
al-Qaeda types and their allies. And it is very important that 
we weigh in and that we get other countries to weigh in on 
behalf of those more moderate forces that espouse tolerance, 
that espouse dignity for all Syrian citizens, and they are out 
there. And for that reason, Secretary Kerry in Rome announced a 
new package of assistance. I am happy that the Congress, after 
our notification, has agreed that we can go forward with that. 
And so we will do things such as the following, Senator.
    We will work with local councils that are under the Syrian 
Opposition Coalition and are actually providing some basic 
services. We will help them, for example, buy chlorine for 
drinking water. We will help them get flour for bakeries. 
Extremists thrive in the kind of desperation that you have in 
areas where the government's control has receded and there is 
no state. These local councils represent a chance to preserve 
institutions of the state and prevent total anarchy. And so we 
are channeling a lot of this assistance, as we noted in the 
notification, to help exactly those moderate groups.
    At the same time, the nonlethal assistance that we will 
provide to the Syrian Supreme Military Council, food rations 
and medical supplies, will help them reduce recruitment and 
pull recruits away from better financed extremist 
organizations. And so we need to weigh in with those groups 
that are espousing a more tolerant vision of Syrian society.
    The Chairman. Thank you.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much for having 
this hearing.
    Ambassador Ford and both Assistant Secretaries, we are 
grateful for your presence here and your service to the 
country. I think we can expand upon that when it comes to your 
service, Ambassador Ford. You have been more than just diligent 
and determined and effective. You have been someone who has 
demonstrated the kind of personal courage that our country is 
so proud of.
    I was in the Middle East last week and spent some time in 
Turkey but mostly focused on Syria, meeting with opposition 
folks and learning from them firsthand what they had 
experienced and the horrors they lived through--they and their 
families--and learning about their perspective on what we have 
done or have not done in their view. It was very helpful to me 
to better understand what we are up against.
    Second, I was also able to visit, as Senator Cardin was in 
February--the refugee camp, Kilis, on the southern border. This 
is a remarkable place in the sense that you have an entire city 
there where young children can go to preschool in one building. 
They can go to high school. There are places for women to do 
work. There are places for men to do work. Trash is collected. 
Law enforcement, an entire city set up as a refugee camp.
    In one of the places we stopped, there was a group of women 
who were working together, some doing work of various kinds, 
some doing knitting and things that help contribute to the 
community and the camp. Right on the table next to the table 
where the women were working was a little baby. Like a good 
politician, I, of course, picked up the baby. But as I was 
holding that child, I was wondering, not in a profound way, but 
it just kind of reminded me what kind of Syria will that child 
experience in the future. Will it be a democratic Syria? Will 
it be, as we would hope it would be--and I know the aspirations 
of the people are consistent with that.
    It is my view that frankly when it comes to the work of the 
Congress, I am not sure anyone has done enough on this subject. 
I am not sure the administration has. Ambassador, you and I 
have talked a lot, and I know how animated you get when someone 
says this has not been done or that has not been done because 
you have been part of the effort. But I think we all could be 
doing more at least in the sense of focusing on a strategy.
    Senator Rubio and I have legislation, and I will not 
highlight all of it. But the name of it is the Syria Democratic 
Transition Act. It focuses on humanitarian aid or the increased 
humanitarian aid to the people, help for the armed opposition, 
nonlethal help for heavily vetted opposition folks. There is a 
sanctions element which is directed at the Central Bank and 
other individuals in addition to what the administration has 
already put in place. There is also, as part of the 
legislation, a plan for dealing with nonconventional weapons. 
That is just highlights.
    There are two areas in the limited time that we have that I 
wanted to focus on: the ability of our Government to do a 
better job to get aid directly to the people, albeit with the 
restrictions that the United Nations has where aid has to flow 
through--by way of the law, flow through the host country.
    Can you just give me a sense of whether or not we are 
improving our ability to get it directly to the people in the 
horror within which they live?
    Second, more and better ways to provide U.S. support for 
the armed opposition, nonlethal support, as I indicated. I 
actually have called for stronger measures, but that is not in 
our legislation.
    So if you could address both. I guess I would start with 
you, Mr. Ambassador, and maybe Assistant Secretary Jones could 
amplify that.
    Ambassador Ford. Senator, getting aid in to the Syrian 
people is not easy, as you know, given the conditions on the 
ground there, the proliferation of armed groups, and the very 
real combat that is going on. I met on Tuesday this week with 
people from an international nongovernment organization that is 
doing work in northern Syria, and they underlined how difficult 
the situation there is.
    But there is more assistance getting into areas of Syria 
where the government no longer has control. It started off very 
slow and it was very difficult, but the networks are stronger 
now in April than they were, say, at the end of last year. At 
the same time, the United Nations is playing a very useful role 
trying to reach people in areas where the government is still 
in control, and in areas where the government is still in 
control, there are literally hundreds of thousands and millions 
of people in need.
    And so both aspects, getting assistance to needy people in 
government-controlled areas and getting assistance to people in 
areas where the government does not control--both aspects are 
very important and we continue to work on that. In particular, 
we have talked to the United Nations and to other members of 
the Security Council about how to get help to the United 
Nations so that it can do more assistance from warehouses in 
Damascus across the country, even into areas where the 
government does not control. So they would have to cross the 
combat lines, as it were. And General Salim Idriss that I 
mentioned and the colonels, for example, have expressed their 
willingness to help with that and we have seen them do that and 
we need to see more of that.
    Senator Casey. Thank you.
    The Chairman. Senator Johnson.
    Senator Casey. Maybe for the record--I know we are out of 
time. Assistant Secretary Jones, maybe you can just provide a 
written answer for the record. That would be helpful.
    Ambassador Jones. Certainly.
    Senator Casey. Thank you.

[Editor's note.--A written response was not received from 
Secretary Jones, but more information pertaining to Senator 
Casey's questions can be found in the responses by Ambassador 
Ford and Secretary Jones to questions submitted by Senators 
Menendez and Flake in the ``Additional Material Submitted for 
the Record'' section on page 45 of this hearing.]

    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Ambassador, apparently you have just returned from the 
region.
    We had a pretty sobering committee hearing on the growing 
and rapidly expanding humanitarian crisis. I think one of the 
issues is as much as we are trying to support those people, we 
are not getting a whole lot of credit for it. Can we do a 
little bit better job from that standpoint? What can you report 
in terms of the awareness of the Syrian people, you know, 
really how much we are trying to support them?
    Ambassador Jones. Senator, maybe I can start to address 
that.
    One of the difficulties we have--as you have said yourself, 
the need is enormous, which means that there are plenty of 
Syrians, many, many Syrians, that we are not reaching with our 
assistance, we being the international community at large, not 
only the United States. But at the same time, we want very much 
for the Syrian people to know just how much the American people 
are providing them in the assistance that we are sending either 
through the United Nations or now through the Syrian Opposition 
Coalition and their organization, the assistance coordination 
unit.
    So we ask the implementing partners with whom we work to 
brand the assistance that we provide in some way so that it is 
clear that this comes from the American people. But at the same 
time, we want to be sure that as we ask them to do that, that 
doing so does not jeopardize them in some way or imperil the 
people with whom they are working. So we are very careful about 
how we do it, and if they do tell us that doing so would 
imperil their people, we ask them simply to be sure to include 
that in the reports that they write, et cetera, as to the 
source of the assistance.
    But the other thing that we are doing now is we are doing 
little articles, lists, that kind of thing translated into 
Arabic and we are getting them out to lots and lots of contacts 
that we have within Syria to their computers, to their Skype, 
on Facebook so that in a broader, general sense that the Syrian 
people do know how much the American people are providing in 
much more specific terms.
    And last, in the U.N. camps, for example outside of the 
UNICEF area, to which we have contributed, the United States is 
now listed in big placards as one of the primary donors. So we 
make sure that even when our funding goes through the United 
Nations where the donors are not usually named, we are now 
named in that respect.
    Senator Johnson. Thank you.
    Again, I really wanted the reaction from the Ambassador in 
terms of potentially the growing hostility of the people of 
Syria that they realize that America can help and we are not. 
That was certainly one feedback we got from that hearing as 
well, that it is not just generalized people frustrated but, I 
mean, possibly a growing hostility toward America that we are 
not helping the way we should. Can you comment into what your 
sense is having just returned from Syria?
    Ambassador Ford. Senator, I met with two members of the 
armed opposition from Aleppo. They are certainly appreciative 
of the kinds of assistance, nonlethal assistance, that we have 
talked to them about. Do they want more? Absolutely. But that 
is not to say that they do not appreciate what we have 
discussed doing with them in terms of nonlethal assistance.
    In my discussions and Secretary Kerry's discussions with 
the Syrian political opposition Tuesday and Wednesday, again do 
they want more from us than we are doing? Yes. But are they 
appreciative of what we are doing? Absolutely they are, and 
they underline that.
    Senator Johnson. What about Syrians in the refugee camps, I 
mean, people really suffering?
    Ambassador Ford. Again, Senator, they would like to be able 
to go home. They want the regime to stop the violence, and they 
want to be able to go home. And they are frustrated that there 
is not a magic key solution to answer that problem, to unlock 
that door. So a lot of the frustration that you hear, Senator, 
is frustration that there is not a simple solution. They think 
that the United States can wave away the problem, and of 
course, we all know that it is much more difficult than that.
    Senator Johnson. Can you just quick speak to the strength 
of the Assad regime? If Bashar al-Assad falls, I mean, is that 
any guarantee that the regime falls?
    Ambassador Ford. No, Senator; it absolutely is not. In 
fact, my sense is that only through outreach to the regime's 
supporters, to the Alawi community that fears another Rwanda, 
to the Christian community that fears a repeat of the bitter 
Christian experience in Iraq, only through guarantees and 
reassurances from both the political opposition and the armed 
opposition will you be able to peel those people away. And 
short of that, the regime still has some fight left in it. It 
is gradually losing a war of attrition, but it is very gradual 
and it is very bloody.
    Senator Johnson. Thank you, Mr. Ambassador and Mr. 
Chairman.
    Senator Kaine. Thank you, Mr. Chair.
    And to the witnesses, I want to pick up right where Senator 
Johnson left off. Ambassador Ford, on that point, to the extent 
that this is seen as a survival fight by the Alawites, that is 
a very different kind of a challenge. And so the issue of what 
happens in the aftermath of an Assad, if there is a worry about 
some sort of a, you know, ethnic purge of that segment of the 
population, then this fight will go on for a very long time. 
You indicated that you would like to see some outreach to that 
portion of the Syrian population. Is that outreach going on? 
And talk about the status of them.
    Ambassador Ford. This is an area where we spend a great 
deal of effort, Senator. I am encouraged that a significant 
group of Alawis met in Cairo 3 weeks ago and for the first time 
ever issued a statement urging their Alawi compatriots to give 
up on the regime and to join the opposition. And I look forward 
to working with people like that. I think all of the Friends of 
Syria look forward to working with a group like that. We will 
be organizing ourselves, meetings in the coming week with 
people from both the Alawi and Christian communities to talk 
about what kinds of guarantees they would need in the 
negotiation to get to a Geneva-type framework and a transition 
government without Bashar al-Assad.
    So I think there is a lot we can do there, and I sense that 
it is moving as bit by bit the balance on the ground tips 
against the regime. But the faster that happens, the faster we 
can get to the kind of doable negotiated political settlement.
    Senator Kaine. And is it the case that a disproportionate 
segment of the military leadership is Alawi?
    Ambassador Ford. It is absolutely true. I heard, when I was 

Ambassador there, that something like 70 percent of the 
officers were Alawis.
    Senator Kaine. So in terms of the prospect for any sort of 
a negotiated end to this, if the Alawi population feels like it 
is--you know, they face a Rwanda, they face a Balkans, they 
face some kind of an ethnic purge of that population in the 
aftermath of Assad, this will continue to be a survival 
struggle that is pretty much unresolvable unless and until the 
opposition successfully courts more Alawi support.
    Ambassador Ford. This is exactly why, Senator, we say there 
needs to be a negotiated political settlement because if there 
is not a negotiated settlement, our sense is that regime 
supporters, fearing death, would fight to the death.
    I want to emphasize here--and I think this is important--
that while we express concern about the Alawi community and the 
Christian community, we also in no way mean to minimize the 
suffering of the majority of the population. The suffering has 
just been enormous, and we have all seen it on television. And 
we have repeatedly denounced bombings and Scud rockets that 
have leveled entire blocks of some cities. So I do not mean to 
say that in some way the Alawis suffer a special threat. 
Frankly, all Syrians are under threat because of the violence. 
And so we want to encourage Syrians themselves in the 
opposition, both political opposition and armed opposition, who 
themselves understand the importance of bringing the country 
together. And they are out there, and these are the people that 
we seek to work with, for example, with the new programs paid 
for by the funding that the Congress generously has agreed to.
    Senator Kaine. We had a fairly extensive Armed Services 
hearing this morning with General Breedlove, who is the 
incoming European Command and NATO Supreme Commander nominee, 
and spent some time in that hearing talking about Russia. Let 
us switch to Russia for a minute.
    What are the circumstances that you might imagine that 
would alter Russia's equation with respect to its current level 
of support for the Assad government?
    Ambassador Jones. Senator, it is hard to know what the 
answer to your question is. It is a very good question. We 
spend a considerable amount of time and effort talking with our 
Russian colleagues, trying to understand what they see their 
long-term goals in Syria to be, trying to work that into, Would 
it not be better for you to join us in working toward a 
negotiated settlement now to end the terrible suffering of the 
Syrian people? Would it not be better to use your influence 
with Assad to get him to have members of the regime without 
blood on their hands to come to the table along the lines of 
the framework of the Geneva communique? For reasons that I find 
difficult to explain, we have not been able to persuade them 
that it is in their fundamental interests to move now to this 
negotiation rather than wait for many, many more thousands of 
Syrians to be killed.
    Senator Kaine. Thank you very much.
    The Chairman. Thank you.
    Senator McCain.
    Senator McCain. Well, I guess in response to your last 
statement, Ms. Jones, I have read for 2 years in your official 
publication, the New York Times, how confident that you were 
that Russia would take Bashar al-Assad. We rode that horse for 
nearly 2 years. So I am glad that you still have some optimism 
that Vladimir Putin will somehow come around. I do not know 
what it takes for you all to understand that he is not going to 
take Bashar al-Assad.
    And, Ambassador Ford, you and I have been talking to 
entirely different people. I have met with the leadership. I 
met with military and civilian leadership, the Syrian 
opposition. I have been to the refugee camps. They are angry 
and bitter at the United States of America for not helping 
them. And if I put myself in their shoes, I would be exactly 
the same way. And for you to assert that somehow they are 
appreciative--not appreciative, Ambassador. Angry and bitter.
    The woman, one of the leaders of the refugee camp in 
Jordan, said, ``Senator, see these children? See these 
children? They are going to take revenge on those who refuse to 
help us and help them.'' The breeding of Palestinian type 
refugee camps in these countries of Lebanon and Jordan, which 
all of us agree are in great danger of being destabilized 
because of this unending flow of refugees--estimates are by the 
end of this year there could be as many as a million in these 
small countries.
    So, Ambassador, you and I have been talking to--or they 
have been given different versions. But I have been talking to 
the leadership of the Syrian opposition, both military and 
civilian. And I understand why they are angry and bitter. I 
understand that because we have watched 80,000 people being 
massacred, hundreds of thousands of refugees, and we have given 
them MRE's with an expiration date of June. And I can 
understand why a fighter in Syria is not comforted by the fact 
that he might get a flak jacket especially when he is being 
pounded with Scud missiles and air power and trained 
mercenaries who have been taken to Iran and sent back now by 
the thousands to kill, massacre, and torture the Syrian people 
while we decide we might give them nonlethal aid while the arms 
from Iran and Russia pour into Syria to prop up Bashar al-
Assad.
    Which brings me to the subject of air power. Both Admiral 
Stavridis and General Mattis both said that we have testified--
we have the capability to protect a no-fly zone with use of 
standoff weapons and with Patriot missiles. Would you support 
such an action to establish a no-fly zone, given the parameters 
that Admiral Stavridis, who is the outgoing head of NATO, and 
General Mattis of Central Command who both said that with 
standoff weapons, we could take out much of the air force, and 
with Patriot missiles we could ensure a no-fly zone? Would you 
agree with that, Ambassador Ford?
    Ambassador Ford. Senator, I am economist. I am not a 
military strategist. So----
    Senator McCain. Wait a minute. You are supposed to know the 
situation on the ground. You were the Ambassador there. If 
anybody is supposed to know what is going on in Syria, it is 
you. So for you to answer me that you are an economist, then 
maybe you are not doing--you are suited for a job as an 
economist over in the State Department, not as a lead on Syria.
    Ambassador Ford. Senator, I cannot argue with professional 
military officers about what their military assets can and 
cannot do. What I can tell you, Senator, is that----
    Senator McCain. I am not asking to argue with the military 
experts. I am asking you your opinion as to whether we should 
and could and should establish a no-fly zone.
    Ambassador Ford. The administration's policy, Senator, has 
consistently been that only a negotiated political settlement 
will provide a durable and sustainable end to the Syrian 
crisis.
    Senator McCain. That is really entertaining because the 
only way that there would be a negotiated settlement is if 
Bashar 
al-Assad thinks that he is going to lose. And right now, with 
the use of Scud missiles and with fighter aircraft, he is able 
to neutralize to a large degree the capabilities of the Syrian 
resistance. We all know that. That is obvious. I do not think 
you have to be a general to understand that.
    Ambassador Ford. Senator, the balance on the ground already 
has changed against the regime, and if you look at a map of 
what the regime controls now compared to what it controlled 4 
or 5 months ago, you will see that the armed opposition has 
made steady, slow but steady gains. And if you were talking to 
the same people from the armed opposition that I was speaking 
with, they would report that to you, whether it be in the south 
along the Jordanian border or up in the north along the Turkish 
border, or out east along the Iraqi border.
    Unquestionably, the regime's use of air power has caused 
massive numbers of casualties. We condemn that. But in the end, 
Senator, only a negotiated political solution will provide a 
sustainable and durable solution.
    Senator McCain. I do not know what to say. I do not know 
what to say to you, Ambassador. Negotiated settlements come 
about when people believe they cannot win. And it has been 
going on for 2 years now, and the administration for over 2 
years has said Bashar al-Assad is going to go. I agree with 
that. At what cost? Should we not do something that would 
prevent this massive slaughter that is going on? Should we not 
do something to accelerate that?
    And you think that nonlethal assistance is somehow going to 
accelerate Bashar al-Assad's departure? There were people in 
your shoes, including you, that predicted a long time ago that 
Bashar 
al-Assad was going to go. He has not. He has not because the 
Iranians and the Russians have stepped up their assistance. 
Those are the facts on the ground. Yes, there has been an 
erosion of his position. But how long will it take? How many 
more have to die? How many more have to be tortured? Without us 
doing what is obviously called for without the risk of a single 
American life--and that is to neutralize their air force and to 
establish a no-fly zone in Syria. And until that happens, you 
are going to see this blood-letting continue despite the fact 
that 2 years ago you and the State Department said the answer 
is for Russia to take care of Bashar al-Assad. Over 2 years 
ago, you have been saying that. I would think that maybe you 
would sing a different tune.
    I have no more questions.
    The Chairman. If you choose to respond to that, you are 
welcome to. If not, we will move on to the next panel.
    Ambassador Jones. Let me just make one more try.
    What the administration is working on is to look at every 
available, practical, and responsible means to end the conflict 
and to make it possible for the Syrian opposition, both the 
civilian and the military, to be responsible leaders of their 
communities in Syria.
    The Chairman. Thank you very much for your testimony before 
the committee. We appreciate it. We look forward to continuing 
to work with you, and with the thanks of the committee, we will 
excuse you at this time.
    Let me, as we excuse this panel, call up Ambassador Dennis 
Ross who joins us to provide his perspective on the crisis in 
Syria and its implications for the Middle East. Ambassador Ross 
is the counselor at the Washington Institute for Near East 
Policy. He has served in senior Middle East positions for 
Presidents Obama, Clinton, and George H.W. Bush, and we are 
pleased to have him with us to provide his perspectives.
    Ambassador, if you would put your microphone on, your full 
statement will be included for the record. We would love you to 
summarize your statement to around 5 minutes or so, and then we 
will engage in a conversation

STATEMENT OF HON. DENNIS ROSS, COUNSELOR, WASHINGTON INSTITUTE 
              FOR NEAR EAST POLICY, WASHINGTON, DC

    Ambassador Ross. Thank you. That is what I would like to 
do. I did submit a statement for the record. What I will do is 
I will talk off of it and maybe go through some of the 
highlights.
    I have listened carefully to the preceding panel, and much 
of what I want to cover, obviously, has been addressed. But 
maybe I can address it with a somewhat different perspective 
and maybe framing it a little bit differently.
    If anything came through in what you have just described 
and, obviously, as you have been investigating this yourself, 
we face a terrible set of challenges within Syria. There is no 
doubt there is a humanitarian catastrophe that is going on. You 
are looking at probably around 80,000 dead right now. Maybe as 
much as a quarter of the population has been displaced either 
within the country or outside the country. So just from a moral 
standpoint, we are looking at something that is creating its 
own imperative to do something more.
    But there also is a reality that our interests are being 
affected as well. This outflow of the refugees threatens to 
destabilize every one of the neighboring countries. And by the 
way, when you have this kind of an outflow, you look at a 
country like Iraq or you look at a country like Lebanon, one of 
the risks that we are going to see is a reemergence of the 
sectarian conflicts that each of those countries had. We had 
hoped the sectarian conflicts in Lebanon and Iraq had been 
relegated to the past. I do not know we should be so confident 
right now because I think the potential spillover effect from 
Syria every day that goes by in this conflict is going to make 
it more likely. That is not to say that it does not affect 
Jordan because clearly the numbers going in there are imposing 
a burden on Jordan that are very difficult. Turkey and 
obviously not so much refugees as it relates to Israel but a 
border that was once secure is not secure. So at a certain 
level, we are facing what amounts to being both a humanitarian 
crisis but we are also facing increasingly a crisis and a 
threat that takes on a national security character to it.
    And one of the things I wanted to mention about this is if 
you look at our history, we have always had in foreign policy 
two schools of thought. We have had an idealist school of 
thought and we have had a realist school of thought.
    The idealists always felt that the only time you should 
intervene internationally, particularly with force or something 
short of that with a significant American involvement, is when 
there is a strong humanitarian, moral need to do so, in other 
words, when our values are at stake. And they looked at 
historical cases like Rwanda and felt this was a blight on our 
conscience. We should have intervened. We could have prevented 
a genocide. They looked at the Balkans as we intervened, but we 
intervened later than we should have. And they looked at Libya 
as something that was appropriate to do.
    And you have a realist school of thought, and the realist 
school of thought always felt the last thing you do is 
intervene because of values. You do not intervene because of 
moral reasons. You intervene because of very concrete, tactical 
interests or tangible interests where you are, in effect, 
dealing with a certain reality, that there is a fundamental 
threat to an important ally. Maybe there is a threat to the 
flow of oil more generally. Maybe there is a threat to our 
standing internationally if we do not do it. And they looked at 
something like the first gulf war as being an appropriate point 
of intervention, and they look at maybe the Iraq war as 
something that they would have disagreed with or even the 
Libyan intervention as something they would have disagreed 
with.
    Now, the reason I raise these two kinds of historical 
schools of thought. It is very hard to find particular cases 
here you will see the idealists and the realists come together. 
But in Syria they do precisely because what we are facing right 
now is not only a moral imperative because of the humanitarian 
catastrophe, but also we are looking at what is a real 
strategic threat and not only as it relates to a broader 
destabilization of the region and nearly all the countries that 
surround Syria, but also because increasingly if Syria 
fragments--and that is the direction that we are headed in--if 
al-Qaeda establishes a base there, if there is all loss of 
central control, those chemical weapons that exist today are 
going to fall into somebody else's hands, and it is going to 
require us either to do something before that happens or, as 
the President has said, that is a game changer.
    My concern is that we are headed toward that almost 
inevitably given what we see happening on the ground, and 
precisely because of that, it leads me to the conclusion that 
we are going to have to do much more. And I will quickly 
summarize three areas where I think we have to do more, and 
then we can have a discussion.
    One, we have to affect the balance of power not only 
between the opposition and the regime, but within the 
opposition itself. And here fundamentally the fact is those who 
we would favor complain consistently that they are not getting 
the arms and they are not getting the money, and the radical 
Islamists are the ones who are. So that is the first 
recommendation I would make, and we can get into a deeper 
discussion on it. I do believe we have to provide lethal 
assistance.
    The second point I would make is I think we have to do much 
more in the area of protecting the Syrian public. I am in favor 
of a no-fly zone, but I would suggest if it is the kind of no-
fly zone that Senator McCain was talking about, if that is 
something that is considered too difficult, there could still 
be a no-fly zone on the cheap, which is you employ the Patriot 
batteries along the border between Turkey and Syria and you 
basically declare that any airplane that flies within 50 miles 
of the border will be deemed to have a hostile intent. Assad 
would then have to think about whether or not he really wants 
to risk challenging that. The attrition of his own air force at 
this point would make him think twice I think, and it would 
provide significant protection at least for the north, 
including a city like Aleppo.
    I would also do more in terms of the humanitarian 
assistance. Robert Ford was talking about how difficult it is 
and all the things we are trying to do to expand the reach, 
including specifically to the Syrians who are displaced within 
Syria but living in that part of Syria that the regime does not 
control, which increasingly is looking about 60 percent of the 
territory. And because the United Nations finds it difficult 
for reasons Senator Casey mentioned to be able to deal with the 
areas outside--or not to deal with--they feel they have to work 
through the regime, dealing with the areas that the regime does 
not control increasingly gets short shrift.
    All right, the third recommendation. Without wanting to 
make it a self-fulfilling prophecy, meaning I do not want to 
accelerate the process of disintegration and fragmentation of 
the Syrian state because I think we will pay for that in time, 
I still feel we have to hedge our bets because we are pretty 
late in the day, and I think we need a containment strategy. I 
often say that the Las Vegas rules do not apply to Syria. What 
is in Syria is not going to stay in Syria. And that simple 
reality means we better think increasingly about how you build 
a containment strategy. And here I would suggest we begin to 
focus on, given the localized nature of much of the rule, can 
we create buffers in different parts of the country to foster a 
kind of containment.
    Now, why do I not stop there and we can get into a 
discussion.
    [The prepared statement of Ambassador Ross follows:]

              Prepared Statement of Ambassador Dennis Ross

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for the invitation to testify today on U.S. policy 
toward Syria. There can be no doubt that the ongoing conflict in Syria 
confronts us with terrible challenges. A humanitarian catastrophe gets 
worse by the day, as nearly a quarter of Syria's population may now be 
displaced internally or externally and the death toll of close to 
80,000 continues to rise inexorably. But it is not just our conscience 
that is affected by this gruesome war. Our interests are also engaged 
because the conflict is unlikely to remain confined to Syria. Indeed, 
the more Syria unravels, the more the state comes apart, the more 
refugees flee to the neighboring states--the more each of Syria's 
neighbors will be threatened with increased instability.
    Even assuming that al-Qaeda does not establish itself in what may 
be the emerging failed state of Syria, the refugee flow already 
constitutes a growing danger to Jordan, Lebanon, and Iraq. None of 
these states can easily absorb the numbers--and in the case of Lebanon 
and Iraq, the sectarian differences may rekindle civil conflicts we'd 
hoped had been relegated to the past. Turkey may face less of a problem 
in this regard and may also be more capable of managing the growing 
influx of refugees, but it, too, is facing growing difficulties in 
absorbing the numbers and managing the camps. Already there have been 
riots in the camps and we should not assume these are one-time events.
    But, of course, it is not just the flow of refugees that endangers 
Syria's neighbors and the region. The disintegration of the Syrian 
state at some point means that it will no longer have centralized 
control of the chemical weapons there. If nothing is done beforehand to 
gain control of the weapons or destroy them, it is not only Syria's 
neighbors that will be in grave danger.
    The point is that the Syrian conflict challenges our values and our 
interests. In our tradition of foreign policy, we have often seen two 
schools of thought: the idealist and realist. The idealists have been 
driven by moral and humanitarian concerns. They see U.S. interests 
engaged when our values are threatened. They justify American 
intervention, to include the use of force, when there is a high moral 
purpose; for the idealists, Rwanda represented an unforgiveable blight 
on our conscience. Idealists would argue that we should have acted 
militarily to prevent genocide. In their eyes, we were late in 
intervening in the Balkans and right to do so in Libya.
    Realists, on the other hand, argue that we should only intervene 
when we have tangible, vital interests at stake. They view humanitarian 
interventions as costly, embodying an emotional binge that inevitably 
comes back to haunt us--making us even less capable of intervening when 
our interests are actually engaged. For the realists, we should only 
intervene when we are directly threatened, or when a strategic ally, 
the wider flow of oil, or our broader credibility is at risk. The first 
gulf war met the test; the Iraq war and Libya did not.
    It is rare that idealists and realists find common ground and agree 
on threats. Ironically, Syria is a place where the idealists and 
realists should come together. There is a moral imperative to try to 
find a way to affect what is happening on the ground, but there is also 
a strong national security imperative at least to contain the conflict 
in Syria, ensure that its CW do not disappear, and prevent the 
neighborhood from being destabilized.
    When described in this fashion, it all seems so clear. The problem, 
of course, is that we are emerging from over a decade of war--having 
spent a great deal in blood and treasure--and Syria is both literally 
and figuratively a mess. The opposition has never been coherent. Indeed 
Islamists have now seemingly gained the upper hand within the 
opposition. The non-Sunni minorities fear what would come after Assad, 
who for his part has stoked the sectarian conflict in an attempt to 
preserve his regime.
    The zero-sum nature of the conflict, with the Assad regime having 
killed and displaced so many of his own citizens, makes it hard to 
create a political process that brings elements of the opposition 
together with members of the regime who don't have blood on their 
hands. The continuing Russian protection of the Assad regime also 
inhibits the likelihood that he will choose to go before the opposition 
succeeds in getting to him. And, as long as he remains, it is highly 
unlikely that there will be a political process.
    The fact that from an idealist and realist point of view we have a 
great stake and need to influence what is happening on the ground does 
not make any of these problems easier to deal with. That said, it is 
hard to see how we have a choice. President Obama has said that the use 
of chemical weapons--or the loss of control of the CW--would be a game-
changer. Given the direction of the conflict, it is hard to believe 
that sooner or later we are not going to be faced with such a 
situation.
    So what can and should we do now? We need to focus in the following 
three areas. First, on what can be done to change the balance of forces 
not only between the opposition and the regime but, more importantly, 
within the opposition itself. Second, we need to do more to protect the 
Syrian population. And third, we need to focus on containing the 
conflict so that it does not spread outside of Syria and destabilize 
the neighborhood.
    With regard to the first, if you talk to any secular member of the 
opposition--as I have--they will tell you that when it comes to money 
and arms, they simply are not getting what the Islamists are getting. 
Some may argue that the Islamists--like Jabhat al-Nusra--have proven 
themselves through fighting more than any of the secular forces. That 
is probably true, but they have also had the means to do so. Reports 
that the Saudis may be diversifying who they provide arms to now may be 
true. Similarly, the fact that the British and the French seem inclined 
to do more is good, but the reality is that if we are to have 
influence, we will have to provide lethal assistance as well as 
nonlethal aid. Additionally, it is important for us to try to work with 
others to improve governance in areas where the opposition groups have 
gained control. But if we are going to influence the landscape and the 
outcome, arms must be part of the equation. There is no reason we 
cannot identify those we are prepared to support and test the 
commitments they make to us as well as their ability to control and 
account for the arms we provide. Indeed, the quality and quantity of 
arms we give can be calibrated to reflect their performance on their 
commitments. Put simply, it is an illusion to think that we will be 
able to affect the realities on the ground without providing lethal 
assistance.
    Second, we need to do more to respond to the need of the Syrian 
public. This has two dimensions: protection on the one hand and meeting 
their humanitarian needs on the other. While I personally favor a no-
fly zone and don't believe that it runs the risks that some have 
identified, I would at least do what I call a no-fly zone on the cheap. 
Both we and our NATO allies now have Patriot batteries on the Turkish-
Syrian border and I believe we should declare that any Syrian military 
aircraft flying within 50 miles of the border will be deemed to have 
hostile intent, and will be shot down. Would Assad challenge this? He 
would do so at high risk and at a time when the attrition of his air 
forces has to be a factor in his calculus. Fifty miles would offer 
protection from air assaults in Aleppo--and effectively create more 
protection for areas where opposition forces are in control. It would 
have the additional benefit of doing something meaningful to protect 
Syrian civilians and finally signal that we are not prepared to sit 
aside and do nothing in the face of the indiscriminate use of force 
against them.
    As important as it is to offer protection, it is also clear that 
more must be done to meet the basic humanitarian needs of the Syrian 
people displaced by this conflict. The United Nations only belatedly 
has begun to provide assistance that does not go through the Syrian 
regime--which necessarily denies aid to those areas outside of its 
control. Today, the regime controls less than 40 percent of the 
country. To the credit of the administration, it has been working 
through NGOs outside of the regime's control, but we must find ways to 
unilaterally and through our international partners expand 
significantly the assistance that is going to the Syrian people. The 
sad truth is that most displaced Syrians within the country are not 
receiving anything close to what is needed--conveying again what 
appears to be the indifference of the international community to the 
war that is being waged against Syria's civilian population.
    The third requirement of our policy now is to hedge against the 
disintegration of Syria. I often say that the Las Vegas rules don't 
apply to Syria; what takes place in Syria won't stay there. Without 
making the fragmentation of the country a self-fulfilling prophecy, we 
need a containment strategy. Much of the opposition is highly 
localized. We need to think about how buffers can be built up at least 
in southern Syria, along part of the Syrian/Iraqi border and in the 
north. Investing in local governance--as part of a coherent design with 
the British, French, Saudis, Emirates, Jordanians, Turks, and others--
may be a way to hedge against the unknowns of the future and build the 
stake of those in Syria to stay put and shape their own future. I don't 
suggest that devising a containment strategy will be easy, but we have 
an interest in doing so and many of our allies, particularly those in 
the gulf, do as well. And, the Saudis and Emiratis certainly understand 
this may be a necessary buffer for to ensure their protection as events 
unfold.
    With all the difficulties and unknowns that presently exist in 
Syria, one thing is clear: while there are surely costs in acting, the 
costs of inaction at this point are growing by the day. We may soon 
face a reality where what the President has declared as a game-changer 
takes place. Positioning ourselves to try to shape the landscape, and 
not simply react to changes in it, makes sense from the standpoint of 
our interests. But it also makes sense from the standpoint of our 
values--and the sooner the better.

    The Chairman. Well, thank you for your insights, some 
rather thoughtful and provocative. Let me broach one or two of 
those with you.
    Your observation that the Islamists have the arms and the 
money. And it seems that some of the most effective fighting 
that is taking place inside of Syria by the ``opposition'' 
seems to be the extreme elements who not only have the money 
and the arms but also the training from their al-Qaeda 
affiliations.
    Ambassador Ross. Right.
    The Chairman. And so does that not, therefore, speak 
strongly to working to change the equation and that means 
helping those entities within the opposition who we identify? 
Ambassador Ford spoke to some of them who would share our 
values, and at the end of the day, helping them would change 
the equation that presently they face because Assad right now, 
as I said before, has a monopoly on air power and artillery 
power. And so, therefore, he believes he can continue on the 
road that he is on.
    Ambassador Ross. Yes. I completely agree with that, and I 
would offer a couple of observations.
    No. 1, we have a stake in influencing the outcome in Syria, 
and if we do not provide lethal assistance, we are unlikely to 
be able to influence that outcome because you have to be able 
to also affect the balance of forces within the opposition. And 
providing lethal assistance is probably the most significant 
measure of that.
    I am afraid, if you take a look at the provision of 
nonlethal assistance, when you look at it, for example, what we 
provided in Libya, I think you will find ultimately while we 
tried to do a good deal in that regard, it did not have that 
much of an effect. So No. 1, if we want to affect the balance 
of forces; No. 2, if we want to affect the landscape and the 
outcome; No. 3, if we are already vetting those who are 
providing nonlethal assistance--and I listened very carefully 
to Robert Ford and to Beth Jones, all the things we are doing 
when it comes to trying to vet and ensure that our assistance 
goes to certain actors. If we know who those actors are 
already, why can we not also apply the same standard and 
provide lethal assistance to them? We can certainly not only 
try to hold them accountable to the commitments they make, but 
we can also calibrate what we provide. You start at a low 
level. If they perform and they live up to their commitments 
and if they can account for what they do with the weapons, then 
we can provide more. But the idea that we cannot provide lethal 
assistance I am afraid is going to increasingly make it likely 
that the wrong forces continue to gain the upper hand, No. 1, 
and No. 2, minimizes the likely influence we are likely to have 
in terms of trying to shape the landscape there.
    The Chairman. On the no-fly zone, what about the risks? I 
understand, as you say, doing it on the cheap in a sense by 
Patriot batteries. But is there not a danger this becomes a 
slippery slope that draws us more deeply into the conflict? How 
do you mitigate against that danger?
    Ambassador Ross. Well, here I would say a couple of things 
as well.
    I think we are going to be drawn in more anyway precisely 
because the President has identified a game changer. If you 
look at the direction and trend of this conflict, it has 
consistently gotten worse. It has consistently gotten more 
violent. Assad has consistently used greater and greater force, 
starting first with the air power, then with the Scuds. And if 
we say that Assad is going to go and you are going to lose all 
central control, what is going 
to happen to those weapons? I mean, at some point we are going 
to be drawn in anyway either to try to destroy those weapons or 
to try to seize those weapons. My attitude is if we are going 
to be drawn in anyway, why not try to affect things in advance 
of that? Why wait until you get driven to that point? No. 1.
    No. 2. So that in a sense suggests there is already a 
slippery slope. But I would even say here one of the virtues of 
doing--if you do only the Patriot batteries, Assad can test 
that, but he is going to test it at a high price to him. You 
look at what is the level of attrition already with his air 
force, he is putting that at risk. Is there a risk that we 
might have to engage them more? Yes, there is a risk we might 
have to engage them more, but I believe we are headed that way 
anyway.
    The Chairman. Finally, what exactly do you mean or put the 
flesh on the bones of what a containment strategy is.
    Ambassador Ross. What I mean by that is we should begin to 
invest in some of the localized leadership. We are already 
providing certain assistance to some in the south and the north 
anyway. This cannot be done only by us. It is going to have to 
be done with the Saudis, with the Emiratis, with the British, 
with the French, the Jordanians, with the Turks, with others. 
We need to come up with a coherent approach about identifying 
those who are prepared to invest in who are also in some of the 
border areas, whether it is in the southern part of Syria, so 
you build up a kind of buffer there, and those who are there 
have, in a sense, a chance to sustain themselves and a stake in 
continuing to operate. You do it in the north. Maybe you do it 
in the Kurdish areas opposite Iraq. But you try to build up 
what amounts to certain kind of buffer areas as a way of trying 
to contain this. I believe you are going to find--certainly 
with the Saudis and the Emiratis, the last thing they are going 
to want is for this to spread outside. And so their stake in 
investing in what could be these buffer zones could be quite 
significant, and they have the means to do so.
    The Chairman. Thank you.
    Senator Corker.
    Senator Corker. Thank you very much for your testimony. I 
find it really clear and focused, and I appreciate what you 
have brought to this hearing.
    On the no-fly zone, we have had a lot of testimony about 
the difficulties of a no-fly zone, you know, in the face of 
thousands of defense mechanisms in a highly urbanized and 
populous areas. So you are talking about just a very narrow no-
fly zone. And so it is not one that basically grounds the air 
force that Syria has. It is one then that is more of a safe 
haven. Would you describe the characteristics of the no-fly 
zone you are talking about?
    Ambassador Ross. I mean, I think you just captured what I 
meant by a no-fly zone on the cheap because that does not 
require us to go in and take out all the targets.
    What Senator McCain was talking about was going in and 
taking out those targets. And I have to say personally 
speaking, I am sympathetic to that. But I understand that there 
are concerns that this becomes something that could be more 
expensive than we want. It could drag us in deeper than we 
want. I recognize that and I am saying, look, at a minimum let 
us do something that creates at least a safe haven. If you are 
providing protection so there cannot be air assaults on Aleppo, 
you are already doing something that is significant, and at a 
minimum, it does something else. It does send a message to the 
Syrian population.
    I do think that there is profound bitterness toward us 
right now. I think maybe it is exaggerated bitterness. You 
would think there would be great bitterness toward the 
Russians, but there is bitterness toward us because there is 
the perception largely because there is a higher expectation 
about us, that we embody a certain set of values, and 
therefore, we should be there providing greater protection for 
them.
    So at a minimum, in addition to the broader humanitarian 
assistance, I would like to see us do something like this 
because it will send a significant message as well.
    One other point I did not make just because I was 
summarizing what the testimony was. You know, there is a 
relationship between what is happening in Syria and Iran. We 
want very much to convince the Iranians to change their 
behavior not just on Syria but on the nuclear issue. And one of 
the problems we have at this point is, notwithstanding the fact 
that the President has been quite clear about the fact that he 
does not bluff and that all options are on the table, today I 
do not believe they think that we will actually use force. And 
the irony here is if you want diplomacy to succeed, they 
actually have to believe we are going to use force.
    Our hesitancy in Syria, I think, plays to their perception 
that we will not. So the more we are prepared to do in Syria, 
the more I think we actually may affect the Iranian calculus in 
terms of the nuclear issue as well.
    Senator Corker. When you are talking about using force, 
again you are talking simply those batteries that are over the 
Turkish border? You are not talking about other types of force?
    Ambassador Ross. When I am talking about force vis-a-vis 
Iran, that is a different story. When I am talking a no-fly 
zone here, I am describing take those NATO batteries that are 
there and they have a kind of envelope of about 50 miles. And 
that means you actually cover a significant part of where the 
opposition has control today, but you also cover Aleppo, which 
is a major area where stopping the aerial bombardment there 
would be no small achievement.
    Senator Corker. So supposedly there are, quote, coordinated 

efforts to ensure that opposition groups that share European 
values and others are getting arms. And so when you talk about 
lethal assistance, many people say, well, look, there are 
plenty of arms flowing into the country. All of the opposition 
groups have these arms. Some of the trained al-Qaeda groups or 
Nusra groups--they are better fighters. I mean, they have been 
at this longer. They learned in Iraq how to conduct activities. 
Some of the others are just newer to the game. How would you 
respond to that?
    Ambassador Ross. Well, I would say two things.
    I think some of that is fair, but again, I have spoken with 
someone who came out and then went back in who was from the 
Revolutionary Council in Homs, and he said something 
interesting. He said, you know, if Assad goes and the al-Qaeda 
types emerge here, we lost the revolution. But they have the 
arms and they have the money and we do not. We keep hearing 
about a lot of arms are coming in or we are getting 
communication equipment, and he said to me we do not see any of 
that.
    So one of the problems is I think many of those who we are 
vetting now do not seem to be getting arms. You know, I read 
the stories about training taking place. I think that has begun 
belatedly, No. 1. No. 2, only recently do I think the Saudis 
have changed the focus of where they are sending arms. I think 
there needs to be a much more coherent approach in terms of 
trying to create one address on the outside providing 
assistance across the board, lethal and nonlethal. We 
constantly are harping on the opposition to become more 
coherent. I suspect that one of the things that needs to be 
more coherent as well is more coherent provision of lethal 
assistance, more coherent provision of training, more coherent 
assistance of intelligence and the like.
    Senator Corker. Thank you very much for your testimony and 
for being here today. I am sorry we have such a light number of 
Senators here. The day kind of ended and folks have gotten on 
planes and headed home. But thank you very much. It has been 
very good.
    Ambassador Ross. Thank you.
    The Chairman. Well, your testimony is very important to us 
and, of course, to the record, and we expect to have you back 
at different times, if you will be so gracious as to come.
    Ambassador Ross. Sure.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Ambassador, what do you think the chances are that 
Russia would actually pressure Assad out?
    Ambassador Ross. I think they are very slim unless the 
Russians decide that the price to them is too high.
    And I think one of the questions that I heard earlier was 
what could change the Russian behavior. I will tell you one 
thing that could change the Russian behavior. I think we need 
to work harder with the Arabs to basically say to the Russians, 
look, you can choose a relationship with Assad or a 
relationship with us, but you cannot have both. And what that 
means is we are going to stop all meetings with Russian 
representatives. That means across the board on all issues. 
Now, this is such a serious issue to us and it is so profound 
in terms of Arab interests, that we are simply not going to 
deal with you. I think that would get the Russian attention.
    Senator Johnson. Do you see any movement on the 
administration's part to try and apply that kind of pressure?
    Ambassador Ross. I do not know if it has been tried or not, 
but I think there has been an effort for some time on the 
administration's part which made sense--and I supported it--to 
try to appeal to the Russians to work with us to create a 
transition because it is in both our interests. The fact is you 
would think--this is what Beth Jones was saying earlier. You 
would think that from a Russian standpoint not being in a 
position where being so identified with Assad and if Assad is 
going to be gone at some point and that will then have a 
consequence within Syria for their longer term interests, you 
would think they would move. But their behavior to date 
suggests that they think Assad is going to hold on longer than 
others may think and that they get some credit for this, and 
they do not think that they are paying such a price with the 
Arab world. And I think one way to change that calculus is for 
them to understand actually they are.
    Senator Johnson. So let us talk about the staying power of 
the Assad regime. How great is it?
    Ambassador Ross. Well, I do think one of the things you 
were hearing before is that Robert Ford was saying is right to 
the extent to which the Alawis feel that this is a struggle for 
survival, they stick with him until the bitter end. And even if 
he were not there, they would still feel they have no choice. 
So I do think the creation of an Alawi group on the outside 
that begins to stake out a different position is very 
important.
    I also feel it is very important to continue not only to 
work with those elements of the opposition that we have been 
working with who want to be inclusive to focus on how there can 
be certain kinds of assurances that they can continue to 
convey.
    But I think also we need the Saudis who are seen and maybe 
the Emiratis who are seen as being so identified with the Sunni 
opposition. We need them also to be trying to reach out to the 
Alawis and to other minorities.
    One of the problems we face is that the minorities--and it 
is not just the Alawis--it is the minorities in Syria today are 
very fearful of what comes after Assad. And so somehow, we have 
to work with others who are in this broader coalition 
internationally who have the means to demonstrate that, look, 
they understand the value of inclusiveness. They understand the 
importance of assurances. They see blood-letting in the 
aftermath of Assad does not serve their interests. I think this 
too needs to be part of a broader strategy. So we have to be 
working with those who I think have the means to provide 
assurances but maybe have not done so to date.
    Senator Johnson. Are you seeing evidence of a group of 
Alawis forming?
    Ambassador Ross. What Robert Ford was saying is that you 
had an organization that had merged 3 weeks ago in Cairo, and 
this is a new development. I suspect they still represent a 
very small percentage of the Alawis, but it represents an 
enormous psychological threshold to cross for them to come out 
because Assad turned this into a sectarian conflict. The 
initial opposition was peaceful and it was not sectarian. He 
turned it into a sectarian conflict because he understood it 
was the only way to survive. Unfortunately, it was also 
something that would guarantee the destruction of Syria.
    Senator Johnson. Kind of considering a no-fly zone, I do 
not 
expect a precise breakdown, but how has the slaughter occurred? 
Has it been air power? Has it been troops? I mean, how have the 
80,000 Syrians lost their lives?
    Ambassador Ross. It is pretty hard to say that, but the use 
of air power when you have no real answer to it is a reminder 
of the power of the regime and the nonassistance from the 
outside. And so it is such a symbol at this point. Do I think 
that the air power is the source of most of the casualties? I 
do not. I think artillery and tanks are probably much more the 
source of a lot of the casualties. And then, look, there is 
just a lot of close-in fighting as well. But the regime has 
used artillery, tanks, and helicopters with a lot of fire power 
to exploit their advantages. They began to use air power more 
as they were finding they were less and less successful in 
terms of being able to prevent the erosion of the regime's 
power.
    Senator Johnson. But would that not indicate that a no-fly 
zone would be less effective than we might hope?
    Ambassador Ross. Well, I am not saying it is a panacea, but 
I do think it would have a psychological effect. It might also 
have an effect on the balance of power. The balance of power is 
both objective and subjective, and you want to try to affect 
both. Well, this will also affect the subjective balance of 
power.
    Senator Johnson. Thank you, Mr. Ambassador.
    The Chairman. Ambassador, thank you very much for your 
insights, and I share several of them. And we look forward to 
picking your brain a little further as we move ahead. With the 
thanks of the committee, we appreciate your testimony.
    This record will stay open until the end of close of 
business tomorrow.
    And with that, this committee hearing is adjourned.
    [Whereupon, at 4:06 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Ambassador Robert Ford and Acting Assistant Secretary 
   Elizabeth Jones to Questions Submitted by Senator Robert Menendez

    Question. Can you please share with the committee what material 
efforts have been undertaken by our government to ensure the timely and 
effective delivery of humanitarian and other relief supplies to all at-
risk populations in Syria, including vulnerable Armenian and other 
Christian minorities in the Aleppo area?

    Answer. Millions have been forced to flee their homes to seek 
safety within the country or beyond its borders. According to the 
United Nations, 3 to 4 million people are now internally displaced and 
more than 1.3 million people are refugees. Should these numbers double 
or even triple by the end of 2013, the number of displaced would amount 
to nearly one-third of Syria's population.
    We are seeing troubling signs that the increase in refugees is 
destabilizing the region. The Zaatri refugee camp is now Jordan's fifth 
largest city, hosting over 100,000 Syrian refugees. Syrian refugees in 
Lebanon now are around 10 percent of that country's population, 
threatening Lebanon's fragile ethnosectarian balance. UNRWA reports 
that over 40,000 Palestinian refugees from Syria have sought refuge in 
Lebanon, straining resources in already-packed Palestinian camp 
communities and further heightening tensions. Turkey now hosts over 
250,000 Syrian refugees. Tens of thousands of refugees have also fled 
into Iraq.
    To help address this growing humanitarian crisis, we are providing 
over $400 million in assistance to those in need, including minority 
communities such as Christians and Armenians, across all 14 
governorates in Syria and across neighboring countries. This money is 
being spent on emergency medical care and supplies, blankets, food, 
protection, clean water, and shelter. We are sending flour to 68 
bakeries in Aleppo and sponsoring food and sanitation projects for the 
desperate families in Atmeh refugee camp. But this is not enough to 
meet the overwhelming need.
    U.N. Secretary General Ban Ki-moon and the Government of Kuwait 
hosted a donor conference on January 30, at which donor nations pledged 
over $1.5 billion to help Syrians in need. But the U.N. appeals for 
assistance remain only partially funded. Secretary Kerry and I are both 
personally pressing countries now to make good on their pledges.

    Question. Can you please provide a detailed accounting, to the 
extent practical, of U.S. aid that has, to date, reached the Armenians 
and other Christian communities in and around Aleppo?

    Answer. We do not track our assistance by the religion of the 
recipient because the provision of humanitarian assistance is based 
solely on vulnerability and need and not on any political, ethnic, or 
religious categories.

    Question. In light of the massive destruction on the ground in and 
around Armenian populated areas, has the administration reached out, 
directly or indirectly, to U.S.-based, international, or local Armenian 
community organizations to help facilitate the delivery of humanitarian 
relief to these regions.

    Answer. The U.S. Government continues to engage a host of religious 
communities and their leadership--including the Armenian Orthodox 
community--in order to identify and fulfill their humanitarian needs. 
However, we do not track our material assistance by the religion of the 
recipient. We also continue to discuss the crisis in Syria and the 
violence the Armenian community faces with the Armenian Orthodox Church 
in Syria and Washington. However, I am not aware of any efforts to 
coordinate humanitarian aid through Armenian groups as opposed to our 
humanitarian providers.

    Question. Can you give us an update on efforts to protect Armenian 
and other minority populations in Syria?

    Answer. To protect minority communities, we are preparing for a 
Syria without Assad by helping the opposition lay the foundation for a 
democratic transition that protects the rights of all Syrians and that 
fosters, rather than threatens, stability in the Middle East.
    That is why we and our partners are helping build the Syrian 
political opposition, including by recognizing the Syrian Opposition 
Coalition as the legitimate representative of the Syrian people. 
Comprised of diverse representatives from inside and outside Syria, the 
coalition is committed to a democratic, inclusive Syria free from the 
influence of violent extremists. Supporting such entities is the best 
way to ensure that the Syrian state that emerges after the Assad regime 
is inclusive and representative and protects minorities, such as 
Armenians. We have urged the opposition to work together to proactively 
and constructively engage the full spectrum of Syrian society, and to 
respect and advocate for the rights of all Syrians. We believe that the 
majority of Syrians seek a unified, inclusive future for their country, 
and we have been gratified to see statements from the opposition 
calling for peace and harmony. We hope to see increased action by the 
opposition to implement their statements as its capacity grows.
    We are also supporting the capacity of religious and community 
leaders within Syria to work together to prevent potential future 
conflicts.

    Question. Out of all the countries that have accepted refugees from 
Syria, Armenia has the least amount of resources to provide for them. 
Would the administration be willing to provide funds to Armenia to help 
manage this burden?

    Answer. The State Department is closely tracking the situation of 
Syrians in Armenia. The Bureau of Population, Refugees and Migration's 
(PRM) contribution to the United Nations High Commissioner for Refugees 
(UNHCR) supports assistance programs for refugees and asylum seekers in 
Armenia. Since May 2012, less than 10 percent of newly arrived Syrians, 
or about 500 individuals, have applied for asylum. In cooperation with 
the Armenian Red Cross Society, UNHCR has provided winter clothing and 
footwear to a total of 343 Syrian Armenians (225 adults and 118 
children). A number of families have received support to cover utility 
costs. With funds provided by UNHCR, Mission Armenia has procured and 
distributed household items to 422 Syrian Armenians. Some of the most 
vulnerable families also received food packages and sanitary items. 
UNHCR supports a medical assistance program, through which over 200 
Syrian Armenians have received medical treatment and/or medication. 
Finally, UNHCR is supporting the newly established NGO, the Center for 
Coordination of Syrian Armenian Issues, with some office equipment, 
furniture, and capacity-building. Similar support has also been 
extended to the Cilicean School No. 14, where Syrian Armenian children 
attend.
                                 ______
                                 

  Responses of Ambassador Robert Ford and Acting Assistant Secretary 
      Elizabeth Jones to Questions Submitted by Senator Jeff Flake

    Question. For decades Syria has been under the rule of 
authoritarian dictators who have opposed the United States at nearly 
every turn. The fall of the Assad regime will give way to an important 
strategic opening in the heart of the Middle East.

  <bullet> How does the administration's current policy toward the 
        conflict enable the United States to take full advantage of 
        that strategic opportunity?
  <bullet> Should the United States be unable to work with a 
        transitional or future government of Syria, how does the 
        administration plan to ensure that Assad's conventional and 
        unconventional weapons do not end up in the wrong hands, as 
        they have in Libya?

    Answer. Saving the Syrian state from humanitarian disaster, 
extremist influences, or state fragmentation is critical to save lives 
and protect our interests and those of our partners in the region.
    Many among Syria's minority communities, including Alawis, Druze, 
Christians, fear what the future holds. The Sunni majority is divided, 
fractious, and anxious to assert the rights so-long denied them by the 
Assad regime. Iran's role in the conflict is especially pernicious, as 
it helps the Assad regime build sectarian militias and attracts 
Hezbollah and Iraqi militias to Syria.
    For Syria to survive and endure, it must find a path that cuts out 
such foreign interference and instead provides for a tolerant society 
that supports regional stability and ensures the dignity of the Syrian 
people. To effectively make the transition beyond the Assad regime, the 
opposition will need a vision for a pluralistic Syria that abides by 
the rule of law, subordinates the military to civilian authority, and 
guarantees the rights of all of its citizens while preserving 
continuity of the state and its institutions.
    The Syrians have to do this for themselves--the international 
community cannot do it for them. What we can do is pave the way for 
this process. That is a large part of what the United States is doing 
now.
    This transition assistance is both supporting the transition away 
from Assad and helping to ensure that it promotes human rights and 
tolerance.
    The Assad regime has created an environment that fuels the growth 
of extremism, and al-Qaeda-linked groups are working to exploit the 
situation for their own benefit. There is a real competition now 
between extremists and moderates in Syria and we need to weigh in on 
behalf of those who promote freedom and tolerance.
    Since December 2012, the United States, along with our 
international partners, has recognized the Syrian Opposition Coalition 
as the legitimate representative of the Syrian people. Comprised of 
diverse representatives inside and outside Syria, the coalition is 
committed to a democratic, inclusive Syria free from the influence of 
violent extremists.
    We are providing $117 million in nonlethal, transition assistance 
to the coalition and a range of local councils and grassroots groups 
inside Syria to build a network of ethnically and religiously diverse 
civilian activists from the top down as well as the bottom up. These 
funds are strengthening local councils, civil society groups, unarmed 
political activists, and free media to improve capacity, governance, 
accountability, and service delivery at the subnational and national 
level. We are laying the foundations for a future democratic Syria by 
supporting the capacity of Syrian citizens to advocate and organize 
around shared human rights concerns. We are supporting the mitigation 
of potential conflicts by assisting local religious and community 
leaders engage in reconciliation and dialogue.
    As the opposition and Syrian civil society begin to address 
questions of accountability, the United States continues to work with 
Syrians and the international community to support the documentation of 
violations and discuss what future transitional justice processes, such 
as a tribunal, might look like. The United States is one of 40 
countries supporting the Syrian Justice and Accountability Center 
(SJAC). The SJAC, led by Syrian human rights defender, Mohammed Al-
Abdullah, focuses on: (1) Collection and analysis of documentation in 
Syria; (2) Coordination of Syrian and international; and (3) Education 
and outreach on transitional justice. The leadership of the Syrian 
people will be critical in addressing issues of justice and 
accountability in their transition.
    The United States has supplied Syrian activists with thousands of 
pieces of communications gear. One group of lawyers used this equipment 
to form the Free Lawyers' Union, which has now taken responsibility for 
legal affairs within the Local Council for the Governorate of Daraa.
    We boosted private radio station signals, extending the reach of 
broadcast on FM stations, and funded media outlets. Those media 
platforms were used to address sectarian violence and issue public 
service messages on best practices in the event of chemical weapons 
exposure.
    The United States also trained over 1,500 local leaders and 
activists--including women and minorities--from over 100 different 
provincial councils. One recent graduate played a critical role in the 
Aleppo local council elections last month. He reached out to 240 
delegates across Aleppo's liberated areas and broadcast the election--
bringing credibility, transparency, and accountability to the process. 
These trainees are improving the ability of local committees and 
councils from Damascus to Deir ez-Zor in the east to Idlib in the 
northwest to better provide for the needs of all members of their 
communities.
    We are not doing this work alone. From Norway to Australia, the 
U.K. to Korea, we are working across the globe with our partners to 
coordinate our efforts.
    We are doing this work to empower the moderate elements, including 
the moderate armed groups such as the Supreme Military Council (SMC), 
including by providing them with food rations and medical kits for 
those in need, to ensure that conventional and chemical weapons do not 
fall into the wrong hands, now or after the conflict.

    Question. The administration has been hesitant to take a proactive 
role in resolving the Syrian civil war, which has been going on for 
more than 2 years. However, the ongoing conflict is taking its toll on 
the region at large. The Wall Street Journal reported earlier this week 
that ``Lebanon, divided along sectarian lines that support and oppose 
Syria's regime, has become a logistical support base for the civil war 
next door.'' This in turn has opened the door for violence inside 
Lebanon, spurring violence that is ``pulling rival Sunni and Shiite 
factions [in Lebanon] into a confrontation that threatens to tear 
Lebanon apart.''

  <bullet> Did the administration foresee this sort of instability? If 
        not, what is it doing to mitigate the conflict from spreading 
        all over the Middle East?

    Answer. Lebanon's official policy on Syria is one of 
``disassociation,'' which was formalized in the June 2012 Baabda 
Declaration. The United States fully supports Lebanon's stated policy 
of disassociation from the Syria crisis, and we remain committed to a 
stable, sovereign, and independent Lebanon.
    We condemn any violation of Lebanon's sovereignty by Syria, noting 
the most recent fatalities from attacks in Hermel and al-Qasr in April. 
We stand by our longstanding commitment to UNSC Resolutions 1559, 1680, 
and 1701 and call on all parties to respect Lebanon's stability, 
sovereignty, and independence.
    Our security assistance programs to the Lebanese Armed Forces (LAF) 
and Internal Security Forces (ISF) ($106 million in FY12) are vital to 
our policy of bolstering Lebanon's stability and sovereignty and 
countering extremist influences, particularly in the face of immense 
tensions associated with the Syrian conflict. The LAF have acted to 
maintain peace and security inside Lebanon despite the increasing 
spillover effects of the crisis in Syria. The LAF have repeatedly 
intervened to prevent lethal clashes in Tripoli and other parts of the 
north from spiraling out of control. The United States continues its 
support to the LAF in logistics, sustainment of systems, mobility, 
personal equipment, weapons, and officer training as a means to equip 
them to address a broad range of challenges presented by the spillover 
effects from Syria.
    We also continue our advisor police and corrections programs to 
enhance Lebanon's ISF capabilities. They have the mission of exerting 
sovereign authority throughout Lebanese territory to assure internal 
public order and security, and protect Lebanon's diverse population.

    Question. The aid that has been provided to Syria and the Syrian 
Opposition Council from the United States has been devoid of U.S. 
markings or branding.

  <bullet> Has the administration sent humanitarian and nonlethal aid 
        to Syria in order to curry favor with the Syrian people or 
        elements of the opposition, or is the goal here strictly to 
        alleviate suffering?
  <bullet> Does administration of this aid further any U.S. national 
        security purposes?

    The administration has expressed its reluctance to providing lethal 
assistance to the opposition because factions within that opposition, 
such as the al-Nusra Front, are allied with elements of al-Qaeda. 
However, in Afghanistan, the United States routinely provides all 
manner of assistance to the Afghan National Police, elements of which 
have also been infiltrated by the Taliban and other enemies to the 
United States.

  <bullet> What are the criteria which the administration uses when 
        determining what groups it will and will not provide assistance 
        to?

    Answer. Humanitarian assistance is provided to Syrians based on 
need and does not serve to advance a political goal. In line with 
Humanitarian Principles, this is provided to all those affected by the 
conflict in Syria, based on need and regardless of political 
affiliation. The United States is providing over $400 million in 
Humanitarian Assistance for those impacted by the conflict in Syria and 
for those who have fled to neighboring countries.
    In contrast to the neutral nature of our humanitarian assistance, 
our transition assistance is designed to strengthen the opposition, 
change the balance on the ground, and help hasten the departure of 
Assad. Some of our $117 million in transition assistance provides for 
the same types of basic goods that would be provided under humanitarian 
aid but with a clear political purpose.
    This aid furthers our national security goals and interests in 
Syria--namely preparing for a Syria without Assad by helping the 
opposition lay the foundation for a democratic transition that protects 
the rights of all Syrians and that fosters, rather than threatens, 
stability in the Middle East.
    Since December 2012, the United States, along with our 
international partners, has recognized the Syrian Opposition Coalition 
as the legitimate representative of the Syrian people. Comprised of 
diverse representatives inside and outside Syria, the coalition is 
committed to a democratic, inclusive Syria free from the influence of 
violent extremists--as they have publically made clear on many 
occasions.
    The same is true of the SMC. Recently, they released a statement 
stating: ``We don't support the ideology of al-Nusra.'' The SMC has 
made clear that they reject extremists' ideology. ''

                                  <all>

</pre></body></html>
